                                Office of Inspector General
                               Corporation for National and
                                        Community Service




                  AUDIT OF
   CORPORATION FOR NATIONAL AND COMMUNITY
SERVICE GRANTS AWARDED TO YOUTHBUILD USA, INC.

               OIG REPORT NUMBER 06-10
                  FEBRUARY 15, 2006




                        Prepared by:

             CONRAD and ASSOCIATES, LLP
              2301 Dupont Drive, Suite 200
                Irvine, California 92612




This report was issued to Corporation management on February 15, 2006.
Under the laws and regulations governing audit follow-up, the Corporation is to
make final management decisions on the report’s findings and
recommendations no later than August 15, 2006, and complete its corrective
actions by February 15, 2007. Consequently, the reported findings do not
necessarily represent the final resolution of the issues presented.
                               Office of Inspector General
                   Corporation for National and Community Service
                Audit of Corporation for National and Community Service
                        Grants Awarded to YouthBuild USA, Inc.
                                   Audit Report 06-10


OIG Summary

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), retained Conrad and Associates, LLP (Conrad) to perform an incurred-cost
audit of grants awarded to YouthBuild USA, Inc., a National Direct Program grantee.

The auditors questioned costs of $1,254,919, consisting of $266,950 in grant costs and
$987,969 in education awards. The questioned grant costs are approximately 2.6 percent
of the $10,367,709 in total costs claimed by YouthBuild USA. Costs questioned for
allowability represent: an alleged violation or provision of law, regulation, contract,
grant, cooperative agreement, or other agreement or document governing the expenditure
of funds; a finding that, at the time of the audit, certain costs were not supported by
adequate documentation; or a finding that the expenditure of funds for the intended
purpose was unnecessary or unreasonable. The auditors also noted instances of
noncompliance with Federal regulations and grant requirements, some of which are
considered material weaknesses.

In its response to the draft audit report, YouthBuild USA took issue with some of the
auditors’ conclusions regarding the adequacy of documentation to support match, and the
manner in which match is presented in YouthBuild USA’s financial records. These
issues will be resolved with the Corporation during the audit resolution phase.

The OIG reviewed Conrad’s report and related documentation and made necessary
inquiries of its representatives. Our review, as differentiated from an audit in accordance
with generally accepted government auditing standards, was not intended to enable us to
express, and we do not express, an opinion on YouthBuild USA, Inc.’s financial
statements, the effectiveness of internal controls or compliance with laws and regulations.
Conrad is responsible for the attached auditor’s report dated August 26, 2005, and the
conclusions expressed in the report. However, our review disclosed no instances where
Conrad did not comply, in all material respects, with generally accepted government
auditing standards.

The OIG provided YouthBuild USA, Inc. and the Corporation with a draft of this report
for review and comment. Their responses are included as Appendices A and B,
respectively.

This report is a matter of public record and its distribution is not limited.
                     Audit of Corporation for National and Community Service
                                National Direct Grants Awarded to
                                         YouthBuild USA
                                    Somerville, Massachusetts

                                              TABLE OF CONTENTS

                                                                                                                  Page
REPORT SUMMARY AND HIGHLIGHTS
     Executive Summary .......................................................................................……………..1

         Background ....................................................................................................……………..1

         Purpose and Scope of Audit...........................................................................……………..2

         Grant Programs Audited ................................................................................…………..…3

         Costs Questioned ...........................................................................................……………..4

         Compliance ....................................................................................................……………..5

         Internal Controls ............................................................................................……………..6

         Report Release……………………………… ...............................................……………..6

INDEPENDENT AUDITOR'S REPORT .................................................................……………..7

FINANCIAL SCHEDULES
     Consolidated Schedule of Award Costs.........................................................…………..…9

         Notes to Consolidated Schedule of Award Costs ..........................................……………10

         Exhibit A - Schedule of Award Costs:
                     AmeriCorps National Direct ......................................................………..…..11

                  Schedule A-1 - Schedule of Award Costs:
                                 YouthBuild USA. ......................................................…………...12

                  Schedule A-2 - Schedule of Award Costs:
                                 YouthBuild Los Angeles. ..........................................…………...14
                                 (Pacific Asian Consortium in Employment – PACE)

                  Schedule A-3 - Schedule of Award Costs:
                                 YouthBuild Philadelphia ..............................................…………18
                                 (Philadelphia Youth for Change)
                   Audit of Corporation for National and Community Service
                              National Direct Grants Awarded to
                                       YouthBuild USA
                                  Somerville, Massachusetts

                               TABLE OF CONTENTS, (CONTINUED)
                                                                                                                Page
                Schedule A-4 - Schedule of Award Costs:
                               YouthBuild St. Louis.................................................…………...21
                               (Youth Education and Health in Soulard)

                Schedule A-5 - Schedule of Award Costs:
                               YouthBuild Portland....................................................………….23
                               (Portland YouthBuild)

                Schedule A-6 - Schedule of Award Costs:
                               YouthBuild Portland DD.............................................………….25
                               (Portland YouthBuild Digital Divide)

                Schedule A-7 - Schedule of Award Costs:
                               YouthBuild York.........................................................………….27
                               (Crispus Attucks CDC)

                Schedule A-8 - Schedule of Award Costs:
                               YouthBuild Atlantic City &
                               YouthBuild Columbia Heights....................................………….30

       Exhibit B – Schedule of Award Costs:
                   Education Awards ......................................................................……………31

COMPLIANCE AND INTERNAL CONTROLS
    Report on Compliance and Other Matters and on Internal Controls over Financial
           Reporting Based on an Audit of Financial Schedules Performed in Accordance
           with Government Auditing Standards................................................…………...37

                Compliance Findings .........................................................................…………...37

                Internal Control Findings...................................................................…………...73

RESPONSES TO REPORT

       YouthBuild USA………….............................................................................…Appendix A

       Corporation for National and Community Service.........................................…Appendix B
REPORT SUMMARY AND HIGHLIGHTS
CONRAD                      AND                                               CERTIFIED PUBLIC ACCOUNTANTS

ASSOCIATES,
L.L.P
                                                                                             2301 DUPONT DRIVE, SUITE 200
                                                                                                  IRVINE, CALIFORNIA 92612
                                                                                                              (949) 474-2020
                                                                                                          Fax (949) 263-5520




  Office of Inspector General
  Corporation for National and Community Service


  This report is issued under an Office of Inspector General (OIG) engagement with Conrad and
  Associates, L.L.P. to audit the costs claimed by YouthBuild USA (YouthBuild) and its
  subgrantees from July 1, 2000, through March 31, 2005, under the grants awarded by the
  Corporation for National and Community Service (Corporation). This report focuses on the
  audit of claimed costs, instances of noncompliance with Federal laws, applicable regulations or
  award conditions, and internal control weaknesses disclosed during the audit.

                                           Executive Summary

  We question costs of $1,254,919 ($266,950 of grant costs and $987,969 of education awards). In
  addition, we question $6,254,305 in match costs claimed. Some of the questioned match is
  claimed in excess of the minimum match required. The grant costs questioned are approximately
  2.6 percent of the total $10,367,709 claimed by Youthl3uild. A questioned cost is (1) an alleged
  violation or provision of law, regulation, contract, grant, or cooperative agreement, or other
  agreement or document governing the expenditure of funds; (2) a finding that, at the time of the
  audit, such cost was not supported by adequate documentation; or (3) a finding that the
  expenditure of funds for the intended purpose was unnecessary or unreasonable. Costs
  questioned include living allowances for which key eligibility documentation could not be
  located, excess living allowance charges, unsupported or inadequately documented other direct
  costs, and education awards for which key eligibility documentation could not be located.
  Details for questioned costs appear in the Independent Auditor's Report.

                                                Background

  The Corporation, pursuant to the authority of the National Community Service Trust Act of
  1993, as amended, awards grants and cooperative agreements to National Direct grantees, such as
  YouthBuild, and other entities to assist in the creation of full-time and part-time national and
  community service programs.

  YouthBuild is a nonprofit agency founded in 1990 with the intention of using youth to rebuild
  their communities and their lives. It has a national network of more than 200 YouthBuild
  affiliates across the country.



                                                       1

                     MEMBERS OF AICPA AND CALIFORNIA SOCIETY OF CERTIFIED PUBLIC ACCOUNTANTS
           MEMBER OF AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS PRIVATE COMPANIES PRACTICE SECTION
YouthBuild has received approximately $13.6 million in funding and exercised $10.3 million in
drawdowns from Corporation funds for the period audited, including AmeriCorps National
Direct Funds and Education Award Grants. Of this amount, approximately $7.4 million was
distributed to subgrantees. All of YouthBuild’s subgrantees were nonprofit organizations.
Authorized funding, grantee-claimed expenditures and drawdowns by grant are as follows:

                                                                      Claimed        Drawdowns
                                            Funding                 within Audit    During Audit
                                           Authorized                  Period          Period
  00ADNMA061 – AmeriCorps National Direct $ 8,703,266               $ 8,073,084     $ 8,073,081
  04NDHMA002 – AmeriCorps National Direct   4,606,474                 2,065,091         591,292
          Total AmeriCorps National Direct 13,309,740               $10,138,175     $ 8,664,373

  00EDNMA006 – Education Award                           229,267        169,267        169,267
  04EDHMA002 – Education Award                           143,832         60,267         60,267
                     Total Education Award               373,099        229,534        229,534

                     Total – Grants Administered
                                  by YouthBuild $ 13,682,839        $10,367,709* $ 8,893,907*

* The differences between the amount claimed and amount drawn down are generally due to
  timing issues.

                                 Purpose and Scope of Audit

Our audit covered the costs claimed under the Corporation grant numbers and for the grant
periods detailed on page 3.

The objectives of our audit were to determine whether:

       •   financial reports prepared by YouthBuild presented fairly the financial results of the
           awards;
       •   internal controls were adequate to safeguard Federal funds;
       •   YouthBuild and its subgrantees had adequate procedures and controls to ensure
           compliance with Federal laws, applicable regulations, award conditions, and that
           member services were appropriate to the programs;
       •   grant costs reported to the Corporation were documented and allowable in accordance
           with the grant terms and conditions; and
       •   YouthBuild had established adequate oversight and informed subgrantees of the
           Corporation’s Government Performance and Results Act (GPRA) goals.

We performed the audit in accordance with auditing standards generally accepted in the United
States of America and generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
amounts claimed against the awards, as presented in the Consolidated Schedule of Award Costs
                                               2
and the grant-specific Schedules of Award Costs (Exhibits A and B), are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in Exhibits A and B. An audit also includes assessing the accounting principles
used and significant estimates made by the auditee, as well as evaluating the overall financial
schedule presentation. Our audit included reviews of audit reports and work papers prepared by
the independent public accountants for YouthBuild and its subgrantees in accordance with the
requirements of OMB Circular A-133, Audits of States, Local Governments and Non-profit
Organizations. We believe our audit provides a reasonable basis for our opinion.

We performed our audit at YouthBuild and its subgrantees during the period of June 1, 2005
through August 26, 2005.

The contents of this report were disclosed to and discussed with YouthBuild at an exit
conference on October 11, 2005. In addition, we provided a draft of this report to YouthBuild
and to the Corporation for comment on December 8, 2005. Their responses are included in their
entirety as Appendices A and B, respectively.

                                   Grant Programs Audited

Our audit of YouthBuild covered financial transaction, compliance, and internal controls testing
of the following program awards funded by the Corporation:

           Program               Award Number           Award Period           Audit Period
 AmeriCorps National Direct      00ADNMA061          07/01/00 – 02/14/04   07/01/00 – 02/14/04
 AmeriCorps National Direct      04NDHMA002          08/04/04 – 08/17/07   08/04/04 – 03/31/05
 Education Award                 00EDNMA006          09/01/00 – 09/25/04   09/01/00 – 09/25/04
 Education Award                 04EDHMA002          06/01/04 – 05/31/07   06/01/04 – 03/31/05

Our audit of the costs claimed by YouthBuild under these awards disclosed the following:

                                                                      Percentage of
                    Description                        Amount        Budget/Claimed
       Award Budget                                 $ 13,682,839            -
       Claimed Costs                                  10,367,709          75.8
       Questioned Grant Costs                            266,950           2.6
       Questioned Education Awards                       987,969            -
       Questioned Match Costs                          6,254,305            -




                                                3
                                        Costs Questioned

The following summarizes the costs questioned on these awards:

AmeriCorps National Direct Grants
 Cost with no supporting documentation                                          $ 135,388
 Costs inadequately documented to determine allowability                           55,002
 Salary costs with no supporting documentation                                     22,137
 Living allowances lacking eligibility documentation                               49,007
 Living allowances exceeding the AmeriCorps limit                                   5,416
      Total Grant Costs Questioned                                                 266,950

Education Awards
  Education Awards Grants                                                          180,771
  AmeriCorps National Direct Grants                                                807,198
      Total Education Awards Questioned                                         $ 987,969

In most cases, we used a random sampling method to test the costs claimed. Based upon this
sampling plan, questioned costs in this report may not represent total costs that may have been
questioned had all expenditures been tested. In addition, we have made no attempt to project
such costs to total expenditures incurred, based on the relationship of costs tested to total costs.
For a complete discussion of these questioned costs, refer to the Independent Auditor’s Report.




                                                 4
                                         Compliance

Our audit disclosed the following instances of noncompliance with Federal laws, applicable
regulations and award conditions:

 1. AmeriCorps member living allowances and fringe benefits were paid to some members
    found to be ineligible or whose files did not contain adequate documentation to support
    proper enrollment and participation in the AmeriCorps program.

 2. Education awards earned by AmeriCorps members who were found to be ineligible
    because of the lack of adequate documentation to support earning the award.

 3. Unsupported or inadequately documented other direct costs claimed were identified at
    several subgrantees.

 4. Member support, operation, and/or administrative match costs were claimed for ineligible
    AmeriCorps members or could not be adequately documented.

 5. Match costs were inadequately tracked and reviewed prior to the compilation and
    submission of the aggregate Financial Status Report (FSR).

 6. Errors on submitted aggregate Financial Status Reports (FSR) were not identified and
    corrected in a timely manner.

 7. Internal controls were inadequate to sufficiently monitor subgrantees administering the
    Education Award Program.

 8. Internal controls at one subgrantee location were not adequate to ensure the safeguarding of
    AmeriCorps funds.

 9. Required AmeriCorps documents were not being submitted within the established
    timeframes.

 10. As a result of questioned match costs, minimum match requirements were not satisfied at
     YouthBuild Los Angeles and YouthBuild Philadelphia.

 11. Two subgrantees claimed administrative costs that exceeded the maximum percentage
     allowed by AmeriCorps Provisions.

 12. Some member living allowances were not paid on an incremental basis.

 13. Aggregate training hours exceeded the maximum allowable at several subgrantees.




                                              5
                                               Internal Controls

Compliance findings numbered 1 through 8 are also considered material internal control
weaknesses.1

                                                Report Release

This report is intended for the information and use of the Office of Inspector General,
management of the Corporation for National and Community Service, YouthBuild and its
subgrantees, and the U.S. Congress.




1 A material weakness is a reportable condition in which the design or operation of one or more of the internal
control components does not reduce to a relatively low level the risk that errors or irregularities in amounts, which
would be material to the financial statements being audited, may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions.

                                                         6
CONRAD                    AND                                                   CERTIFIED PUBLIC ACCOUNTANTS

ASSOCIATES,                             L.L.P
                                                                                                2301 DUPONT DRIVE, SUITE 200
                                                                                                     IRVINE, CALIFORNIA 92612
                                                                                                                 (949) 474-2020
                                                                                                             Fax (949) 263-5520




Office of Inspector General
Corporation for National and Community Service

                              INDEPENDENT AUDITOR'S REPORT

We audited the costs incurred by YouthBuild USA (YouthBuild) for the award numbers listed
below. These costs, as presented in the Consolidated Schedule of Award Costs and the grant-
specific Schedules of Award Costs (Exhibits A and B) are the responsibility of YouthBuild's
management. Our responsibility is to express an opinion on the Consolidated Schedule of
Award Costs and Exhibits A and B based on our audit.

           Program                    Award Number             Award Period                Audit Period
 AmeriCorps National Direct           00ADNMA061           07/01/00– 02/14/04           07/01/00          –
 AmeriCorps National Direct           04NDHMA002           08/04/04– 08/17/07           08/04/04 – 03/31/05
 Education Award                      00EDNMA006           09/01/00– 09/25/04           09/01/00          –
 Education Award                      04EDHMA002           06/01/04– 05/31/07           06/01/04 – 03/31/05

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
financial schedules are free of material misstatement. An audit includes examining, on a test
basis, evidence supporting the amounts and disclosures in the financial schedules. An audit also
includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial schedule presentation. We believe our
audit provides a reasonable basis for our opinion.

In our opinion, except for the issues related to the $ 266,950 in grant questioned costs discussed
above, the Consolidated Schedule of Award Costs and the grant-specific Schedules of Award
Costs (Exhibits A through B and related Schedules) referred to above present fairly, in all
material respects, the costs claimed for the period July 1, 2000, to March 31, 2005, in conformity
with generally accepted accounting standards in the United States of America.

In accordance with the Government Auditing Standards, we have also issued our report, dated
August 26, 2005, on our consideration of YouthBuild's internal controls over financial reporting
and on our tests of its compliance with certain provisions of laws, regulations, contracts, and
grant agreements and other matters. The purpose of that report is to describe the scope of our
testing of internal control over financial reporting and compliance and the results of that testing,
and not to provide an opinion on the internal control over financial reporting or on compliance.
That report is an integral part of an audit performed in accordance with Government Auditing
Standards and should be considered in assessing the results of our audit.


                                                       7
                   MEMBERS OF AICPA AND CALIFORNIA SOCIETY OF CERTIFIED PUBLIC ACCOUNTANTS
            MEMBER OF AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS PRIVATE COMPANIES PRACTICE SECTION
This report is intended for the information and use of the Office of Inspector General,
management of the Corporation for National and Community Service, YouthBuild and its
subgrantees, and the U.S. Congress.




Conrad and Associates, L.L.P.
Irvine, California
August 26, 2005




                                          8
               Corporation for National and Community Service Awards
                                    YouthBuild USA

                         Consolidated Schedule of Award Costs

                             July 1, 2000, to March 31, 2005


                                                                             Questioned
                                  Approved                      Questioned    Education
Award Number        Program        Budget       Claimed Costs     Costs        Awards   Reference
00ADNMA061      AmeriCorps       $ 8,703,266    $ 8,073,084     $ 266,950    $ 804,835
04NDHMA002      AmeriCorps         4,606,474       2,065,091             -        2,363
                Total AmeriCorps  13,309,740     10,138,175       266,950       807,198 Exhibit A


00EDNMA006 Education Award           229,267        169,267             -      175,371
04EDHMA002 Education Award           143,832         60,267             -        5,400
         Total Education Award       373,099        229,534             -      180,771   Exhibit B

                          Totals $ 13,682,839   $ 10,367,709    $ 266,950    $ 987,969




                                            9
           Corporation for National and Community Service Awards
                                   YouthBuild USA

                   Notes to Consolidated Schedule of Award Costs

                            July 1, 2000, to March 31, 2005


Reporting Entity

The accompanying consolidated Schedule of Award Costs includes amounts budgeted,
claimed, and questioned under AmeriCorps National Direct and Education Award Program
grants awarded to YouthBuild by the Corporation for the period from July 1, 2000, to March
31, 2005.

YouthBuild awards its AmeriCorps grant funds to subgrantees that administer AmeriCorps
programs and report financial and programmatic results to YouthBuild.

Basis of Accounting

The accompanying Schedule has been prepared to comply with the provisions of the grant
agreements between the Corporation and YouthBuild. The information presented in the
Schedule has been prepared from the reports submitted by YouthBuild to the Corporation.
The basis of accounting used in preparation of these reports differs slightly from accounting
principles generally accepted in the United States of America as follows:

    Equipment
    Equipment is charged to expense in the period during which it is purchased instead of
    being recognized as an asset and depreciated over its useful life. As a result, the
    expenses reflected in the Schedule of Award Costs include the cost of equipment
    purchased during the period rather than a provision for depreciation. The equipment
    acquired is owned by YouthBuild while used in the program for which it was purchased
    or in other future authorized programs. However, the Corporation has a reversionary
    interest in the equipment. Its disposition, as well as the ownership of any proceeds there
    from, is subject to Federal regulations.

    Inventory
    Minor materials and supplies are charged to expense during the period of purchase.




                                           10
         EXHIBIT A

 SCHEDULE OF AWARD COSTS:
AMERICORPS NATIONAL DIRECT
                                                                                        Exhibit A
                                       YouthBuild USA
                                  Schedule of Award Costs
                       Corporation for National and Community Service
                      Award Numbers 00ADNMA061 and 04NDHMA002
                                        (AmeriCorps)
                               July 1, 2000, to March 31, 2005


                                                   Questioned     Questioned
                                    Claimed         Claimed       Education
Detail Audits of AmeriCorps          Costs           Costs         Awards         Reference

YouthBuild (parent)               $ 2,702,637 $             -   $          -    Schedule A-1

Subgrantees
 YouthBuild Los Angeles                333,203        63,856          84,279    Schedule A-2
 YouthBuild Philadelphia               784,785        52,960         538,650    Schedule A-3
 YouthBuild St. Louis                  789,709             -          11,813    Schedule A-4
 YouthBuild Portland                   611,084             -           7,088    Schedule A-5
 YouthBuild Portland DD                283,067             -           2,363    Schedule A-6
 YouthBuild York                       695,142        12,704         163,005    Schedule A-7
 YouthBuild Atlantic City              135,388       135,388                -   Schedule A-8
 YouthBuild Columbia Heights             2,042         2,042                -   Schedule A-8

         Total – Detailed Audits $ 6,337,057 $       266,950    $    807,198    Note 1


Notes

   1. The total claimed costs reported do not include costs claimed by subgrantees that were not
      tested as part of this audit. We used a judgmental sampling approach at the selected
      subgrantee sites to test the costs claimed for Program Years 2000-01 to 2002-03.
      YouthBuild had the following number of subgrantees for the AmeriCorps National Direct
      Program:

                                                 Program Year
                                     2000-       2001-    2002-      2004-
                                     2001        2002     2003       2005       Total
         00ADNMA061                   14          12       12          -         38
         04NDHMA002                    -           -        -         23         23




                                              11
                                                                               Schedule A-1
                                                                                 Page 1 of 2
                                    YouthBuild USA
                               Schedule of Award Costs
                    Corporation for National and Community Service
                   Award Numbers 00ADNMA061 and 04NDHMA002
                            July 1, 2000, to March 31, 2005

                                      YouthBuild
                               (Somerville, Massachusetts)

                                                                                Reference

Approved Budget (Federal Funds)                                $ 3,008,183       Note 1
Claimed Costs                                                  $ 2,702,637       Note 2
Questioned Match Costs
   Unsupported match costs - parent                 243,292                      Note 3
Total Questioned Match Costs                                   $   665,900

Notes
1. According to budget schedules for the AmeriCorps National Direct grants, YouthBuild’s
   total budget is $3,008,183 ($2,007,113 for Award 00ADNMA061 and $1,001,070 for Award
   04NDHMA002).

2. Claimed costs represent YouthBuild’s reported expenditures for both AmeriCorps Awards.

                 2000-2001            2001-2002   2002-2003    2004-2005        Total
    00ADNMA061   $ 805,457            $ 645,981   $ 871,849    $       -     $2,323,287
    04NDHMA002           -                 _ -           _ -     379,350        379,350
           Total $ 805,457            $ 645,981   $ 871,849    $ 379,350     $2,702,637




                                             12
                                                                                Schedule A-1
                                                                                  Page 2 of 2

3. YouthBuild’s financial management system is not adequate to provide a clear audit trail for
   the match costs claimed on the aggregate FSR. YouthBuild booked match costs for the
   AmeriCorps program into various funds/cost centers based on the funding source of the
   expensed item. However, there were no specific account codes to distinguish expenses for
   AmeriCorps versus other programs booked in the same fund/cost center. As such,
   YouthBuild was unable to identify which transactions in the various funds/cost centers were
   claimed as match on the aggregate FSR. In addition, YouthBuild personnel were unable to
   determine the methodology of calculating the claim amount from each fund/cost center.
   From reconstructed records, we were only able to substantiate part of the match costs. The
   remaining portion has been questioned as follows: (Also see Compliance Finding #4)

                    $ 1,107,220    Match cost claimed
                      (863,928)    Amount substantiated during audit
                    $ 243,292      Unsupported match costs




                                             13
                                                                                Schedule A-2
                                                                                  Page 1 of 4
                                    YouthBuild USA
                               Schedule of Award Costs
                    Corporation for National and Community Service
                   Award Numbers 00ADNMA061 and 04NDHMA002
                            July 1, 2000, to March 31, 2005

                                 YouthBuild Los Angeles
                   (Pacific Asian Consortium in Employment – PACE)


                                                                    Reference
  Approved Budget (Federal Funds)                     $   472,591   Note 1
  Claimed Costs                                       $   333,203   Note 2
  Questioned Costs
     Living Allowances                                $    63,856   Notes 3, 4, 5
     Education Awards                                      84,279   Notes 3, 6, 7, 8, 9, 10
     Match Costs                                          201,901   Notes 3, 5, 6, 11, 12
                  Total Questioned Costs              $   350,036

Notes
1. According to budget schedules for the AmeriCorps National Direct grants, YouthBuild Los
   Angeles’ total budget is $472,591 (YouthBuild Los Angeles was a subgrantee for award
   00ADNMA061 only).

2. Claimed costs represent YouthBuild Los Angeles’ reported expenditures for the program
   years 2000-01 through 2002-03.

3. Our review of 86 member files, which was the entire universe, disclosed 57 files not
   containing documentation to support that the member was a U.S. citizen or national, or a
   lawful permanent resident. PACE believes the documentation has been misplaced due to the
   moving of program sites over the years. As a result of the missing citizenship
   documentation, we have questioned living allowances, as well as the associated fringe
   benefits paid to the members, match costs, and education awards as follows: (Also see
   Compliance Finding #1, Finding #2, and Finding #4)

                      Member        Living     Match   Education
                     Exceptions   Allowances   Costs     Award
                        57        $ 38,635   $ 114,441 $ 63,017




                                            14
                                                                                   Schedule A-2
                                                                                     Page 2 of 4

4. Living allowances claimed under the Corporation share for seven members exceeded the 85
   percent of minimum living allowance established by AmeriCorps provisions. As a result, we
   have questioned living allowances and fringe benefits paid to these members. However,
   some of these living allowances have already been questioned in Note #3. The following
   summarizes the questioned costs. (Also see Compliance Finding #1)

                                                                     Costs
         Member         Living     Fringe                        Questioned
        Exceptions    Allowances Benefits        Sub-Total        in Note #3     Total
            7         $ 5,131    $     393      $ 5,524          ($    108)    $ 5,416

5. During our review of payroll expenditures, we noted numerous instances where there were
   no time sheets available to support the payroll expense. PACE’s internal controls require all
   payroll expenses to be supported with a completed time sheet. PACE personnel believe the
   time sheets were completed but probably misplaced due to moving their offices over the
   years. As a result, we have questioned the claimed living allowance with the associated
   fringe benefits and the match costs as follows: (Also see Compliance Finding #1 and
   Finding #4)

                             Number of       Living    Match
                             Exceptions    Allowances   Costs
                               156         $ 19,805   $ 20,550

6. Our review of 86 member files disclosed 34 files where there were no time sheets or other
   documentation to support the total hours reported in the Corporation’s Web-Based Reporting
   System (WBRS). PACE believes the documentation has been misplaced due to moving
   program sites over the years. All living allowances associated with these 34 files were
   claimed as match costs and as a result, we questioned living allowances and fringe benefits
   paid to the members. We also questioned any education award earned by these members.
   However, some costs associated with these members have already been questioned in Note
   #3. The following summarizes the questioned costs: (Also see Compliance Finding #2 and
   Finding #4)
                                                  Ed Award
                     Member        Education Questioned
                    Exceptions       Award        in Note #3      Total
                        34        $ 23,625       ($ 21,263)    $ 2,362
                                                      Match
                                                       Costs
                      Member         Match         Questioned
                     Exceptions       Costs         in Note #3       Total
                        34         $ 75,937        ($ 65,811)     $ 10,126



                                              15
                                                                                       Schedule A-2
                                                                                         Page 3 of 4

7. Our review of 86 member files disclosed 19 files that did not contain adequate
   documentation to support the member’s age. Without age documentation, we were unable to
   determine if the member was eligible to participate in the program or if a parental consent
   was needed. Of those 19 members, only three earned an education award. As a result, we
   have questioned the education awards for those three members. However, the education
   awards for these members have already been questioned in Note #3. The following
   summarizes what would have been the questioned costs: (Also see Compliance Finding #2)

                             Members                        Ed Award
               Member        Earning       Education       Questioned
              Exceptions      Award         Award           in Note #3        Total
                 19             3         $ 9,225          ($ 9,225)     $         -

8. Our review of 86 member files disclosed 52 files that did not contain either documentation of
   the member’s high school diploma or a self-certification. Of those 52 members, only five
   earned an education award. As a result, we have questioned the education awards for those
   five members. However, the education awards for the members have already been
   questioned in Note #3. The following summarizes what would have been the questioned
   costs: (Also see Compliance Finding #2)

                              Member                        Ed Award
               Member         Earning      Education       Questioned
              Exceptions      Award         Award           in Note #3        Total
                 52              5        $ 11,813         ($ 11,813)    $         -

9. Our review of 86 member files disclosed 15 files that did not contain adequate time sheets to
   support the hours reported in WBRS. In each case, the cumulative time sheets provided were
   less than the total hours (training and service) reported in WBRS. PACE believes there are
   missing time sheets that would account for the difference. As a result, we have questioned
   the education award earned by these 15 members. However, some of the education awards
   have already been questioned in Note 3. The following summarizes the questioned costs:
   (Also see Compliance Finding #2)

                                                      Ed Award
                      Member        Education        Questioned
                     Exceptions      Award            in Note #3     Total
                        15         $ 47,250          ($ 28,350)    $ 18,900




                                                16
                                                                                Schedule A-2
                                                                                  Page 4 of 4

10. Our review noted three members who exited the program early and received partial education
    awards. The reasons and/or documentation for the early exit were not in the member files.
    As a result, we have questioned the partial education awards of these three members.
    However, the education awards have already been questioned in Note 3. The following
    summarizes what would have been the questioned costs: (Also see Compliance Finding #2)

                                                       Ed Award
                      Member         Education        Questioned
                     Exceptions       Award            in Note #3     Total
                         3          $ 13,404          ($ 13,404)      $    -

11. Our review of payroll expense disclosed that living allowances were paid to two members
    who were not enrolled in WBRS and for whom member files were not maintained. The
    living allowances were claimed as match costs in program year 2000-2001. As a result, we
    have questioned a total of $2,168 as follows: (Also see Compliance Finding #4)

                        Member          Living           Fringe
                       Exceptions     Allowance         Benefits     Total
                           2          $ 2,014           $ 154       $ 2,168

12. Interviews conducted with PACE personnel and our review of the general ledger indicated
    that a majority of the costs claimed as match were funded from the U.S. Department of
    Housing and Urban Development (HUD). PACE was able to identify a portion of match
    costs, $19,260, donated from a private source. However, match costs questioned in Notes 3,
    5, 6 and 11 exceed the $19,260 available to be claimed as match. As a result, the entire
    amount of $201,901 claimed as match is unallowable, however we question $54,616 to
    account for the remaining match costs not already questioned. (Also see Compliance Finding
    #4)

                                                                 Questioned
                                                                Match Costs
                                                       Note 3   $ 114,441
                                                       Note 5       20,550
                                                       Note 6       10,126
                                                      Note 11        2,168
                                                        Total   $ 147,285

                              Less: Claimed match costs (           201,901)

                       Additional questioned match costs ($          54,616)




                                                 17
                                                                                   Schedule A-3
                                                                                     Page 1 of 3
                                     YouthBuild USA
                                Schedule of Award Costs
                     Corporation for National and Community Service
                    Award Numbers 00ADNMA061 and 04NDHMA002
                             July 1, 2000, to March 31, 2005

                                 YouthBuild Philadelphia
                             (Philadelphia Youth for Change)


                                                                       Reference
  Approved Budget (Federal Funds)                      $    898,329    Note 1
  Claimed Costs                                        $    784,785    Note 2
  Questioned Costs
     Other Direct Costs                                $      52,960   Note 3
     Education Awards                                        538,650   Notes 4, 5, 6, 7
     Match Costs                                           4,025,236   Notes 6, 8, 9, 10
                  Total Questioned Costs               $ 4,616,846

Notes
1. According to budget schedules for the AmeriCorps National Direct grants, YouthBuild
   Philadelphia’s total budget is $898,329 ($651,537 for Award 00ADNMA061 and $246,792
   for Award 04NDHMA002).

2. Claimed costs represent YouthBuild Philadelphia’s reported expenditures for both
   AmeriCorps Awards.
                      2000-2001 2001-2002 2002-2003 2004-2005           Total
     00ADNMA061       $ 126,038 $ 255,811   $ 251,500    $        -  $ 633,349
     04NDHMA002               -   _     -        _   -      151,436    151,436
               Total $ 126,038 $ 255,811    $ 251,500    $ 151,436 $ 784,785

3. Our review of Other Direct Costs disclosed numerous instances where adequate
   documentation was not provided to determine if the costs were allocable, allowable, and
   reasonable for the AmeriCorps grant. As a result, we have questioned Other Direct Costs as
   follows: (Also see Compliance Finding #3)
                                  Number of       Questioned
                                 Transactions        Costs
                                     34           $ 52,960




                                             18
                                                                                   Schedule A-3
                                                                                     Page 2 of 3

4. Time sheets for all half-time members were not signed by the member. According to
   YouthBuild Philadelphia personnel, internal controls require that a time sheet, signed by the
   member, be submitted prior to paying the member’s living allowance for that pay period. As
   a result, we have questioned the members’ living allowances and education awards. Data for
   cumulative living allowances paid to half-time members was not available for our review.
   However, since the living allowances were claimed as match, the costs have already been
   questioned in Note 8. The following is the questioned education awards earned by the half-
   time members: (Also see Compliance Finding #2)

                                                    Questioned
                                                    Education
                                Award Number         Awards
                                00ADNMA061         $ 533,925

5. Our review of 100 member files disclosed 22 files that did not contain either documentation
   of the member’s high school diploma or a self-certification. All of the 22 member files
   pertained to award number 00ADNMA061. Of those 22 members, only two earned an
   education award in program year 2000-01. As a result, we have questioned the education
   awards for those two members. However, the education award for one member has already
   been questioned in Note 4. The following summarizes the questioned costs: (Also see
   Compliance Finding #2)
                             Members      Questioned        Costs
               Member        Earning       Education    Questioned
              Exceptions      Award         Award        in Note #4     Total
                 22             4         $ 7,088       ($ 2,363)     $ 4,725

6. Our review of 100 member files disclosed 17 half-time member files that did not contain
   documentation that the member was a U.S. citizen or national, or a lawful permanent
   resident. All of the 17 member files were from award number 00ADNMA061. Only seven
   of those members earned an education award. As a result, we questioned the living
   allowance and education award for those seven members. All living allowances paid to half-
   time members have been questioned at Note 8. In addition, all education awards earned by
   half-time members have been questioned at Note 4. The following summarizes what would
   have been the questioned education awards: (Also see Compliance Finding #2 and Finding
   #4)

                             Members      Questioned     Ed Award
               Member        Earning       Education    Questioned
              Exceptions      Award         Award        in Note #4       Total
                 17             7         $ 16,538      ($ 16,538)    $        -




                                              19
                                                                                    Schedule A-3
                                                                                      Page 3 of 3

7. Our review of 100 member files disclosed 12 half-time member files that did not contain
   adequate documentation to support the members’ age. Without age documentation, we were
   unable to determine if the member was eligible to participate in the program or if a parental
   consent was secured. All of the 12 half-time member files were from award number
   00ADNMA061, but only four of those members earned an education award. As a result, we
   have questioned the education awards for those four members. However, the education
   awards for these members have already been questioned in Note 4. The following
   summarizes what would have been the questioned costs: (Also see Compliance Finding #2)

                             Members                      Ed Award
               Member        Earning       Education     Questioned
              Exceptions      Award         Award         in Note #4       Total
                 12             4         $ 9,451        ($ 9,451)     $        -

8. Living allowances paid to half-time members were claimed as match costs. YouthBuild
   Philadelphia personnel indicated the match costs were funded by HUD. YouthBuild
   Philadelphia was unable to provide any documentation to substantiate that a non-Federal
   funding source contributed to the match costs. As a result, we have questioned all living
   allowances claimed as match costs, totaling $699,185. (Also see Compliance Finding #4)

9. Aggregate FSR data obtained from YouthBuild indicated match costs claimed by YouthBuild
   Philadelphia of $5,021,561. However, upon review of the accounting records and monthly
   FSRs, the total match costs should be $4,932,828. The variance of $88,733 was not
   supported by accounting records or source documents. Subgrantee personnel speculated the
   error may have been caused by YouthBuild double-counting some of the member costs. As a
   result of the variance, we questioned $88,733 of match costs claimed on grant
   00ADNMA061. Despite the questioned match costs, the subgrantee was still able to meet
   the minimum match requirement. (Also see Compliance Finding #4)

10. Our audit indicated that of the $4,932,828 match costs, only $1,019,125 was adequately
    supported. The remaining $3,913,703 was not adequately supported for us to determine if
    the costs were allowable, allocable, and reasonable per OMB Circulars. As a result, we have
    questioned $3,913,703 of match costs from award 00ADNMA061. However, some of these
    costs have already been questioned in Note 8. The following summarizes what would have
    been the questioned costs and the questioned costs that remain: (Also see Compliance
    Finding #4)
                                               Costs
                          Questioned       Questioned
                          Match Costs       in Note #8        Total
                         $ 3,913,703       ($ 676,385)     $ 3,237,318




                                              20
                                                                                     Schedule A-4
                                                                                       Page 1 of 2
                                     YouthBuild USA
                                Schedule of Award Costs
                     Corporation for National and Community Service
                    Award Numbers 00ADNMA061 and 04NDHMA002
                             July 1, 2000, to March 31, 2005

                                  YouthBuild St. Louis
                         (Youth Education and Health in Soulard)


                                                                        Reference
  Approved Budget (Federal Funds)                       $    875,220    Note 1
  Claimed Costs                                         $    789,709    Note 2
  Questioned Costs
     Education Awards                                   $      11,813   Note 3
     Match Costs                                            1,017,191   Notes 4, 5
                  Total Questioned Costs                $ 1,029,004

Notes
1. According to budget schedules for the AmeriCorps National Direct grants, YouthBuild St.
   Louis’ total budget is $875,220. ($691,492 for Award 00ADNMA061 and $183,728 for
   Award 04NDHMA002)
2. Claimed costs represent YouthBuild St. Louis’ reported expenditures for both AmeriCorps
   awards.

                  2000-2001           2001-2002    2002-2003       2004-2005        Total
     00ADNMA061   $ 225,000           $ 224,176    $ 232,493       $       -     $ 681,669
     04NDHMA002           -                   -            -         108,040       108,040
            Total $ 225,000           $ 224,176    $ 232,493       $ 108,040     $ 789,709

3. Our review of 89 member files disclosed 5 files that did not contain adequate time sheets to
   support the hours reported in WBRS. In each case, cumulative time sheets were less than the
   total hours (training and service) reported in WBRS. We were unable to determine if the
   members performed the hours required to earn an award, and as a result, we have questioned
   the education awards earned by these five members. (Also see Compliance Finding #2)




                                              21
                                                                                Schedule A-4
                                                                                  Page 2 of 2

4. Costs claimed on the FSR for award number 00ADNMA061 did not reconcile to the
   subgrantee’s accounting records. Match costs per the subgrantee’s accounting records were
   less than the costs claimed on the FSR. Additional documentation was not provided to
   support the difference. As a result, we have questioned match costs as follows: (Also see
   Compliance Finding #4)

              $ 3,472,496   Match costs claimed on the FSR
                2,630,369   Costs recorded in subgrantee’s accounting records
              $ 842,127     Unsupported difference

5. Living allowances paid to members were claimed as match costs. YouthBuild St. Louis
   personnel indicated the match costs were funded by the U.S. Department of Housing and
   Urban Development (HUD). No documentation was provided to substantiate that a non-
   Federal funding source contributed to the match costs. As a result, we have questioned
   $175,064, which were living allowances claimed as match costs. Despite these questioned
   match costs, the subgrantee had other cash match expenditures to meet the minimum match
   requirement. (Also see Compliance Finding #4)




                                             22
                                                                                   Schedule A-5
                                                                                     Page 1 of 2
                                     YouthBuild USA
                                Schedule of Award Costs
                     Corporation for National and Community Service
                    Award Numbers 00ADNMA061 and 04NDHMA002
                             July 1, 2000, to March 31, 2005

                                    YouthBuild Portland
                                   (Portland YouthBuild)


                                                                       Reference
  Approved Budget (Federal Funds)                       $   739,946    Note 1
  Claimed Costs                                         $   611,084    Note 2
  Questioned Costs
     Education Awards                                         7,088    Notes 3, 4, 5, 6
                  Total Questioned Costs                $     7,088


Notes
1. According to budget schedules for the AmeriCorps National Direct grants, YouthBuild
   Portland’s total budget is $739,946. ($468,231 for Award 00ADNMA061 and $271,715 for
   Award 04NDHMA002)

2. Claimed costs represent YouthBuild Portland’s   reported expenditures for both AmeriCorps
   Awards.
                        2000-2001 2001-2002         2002-2003     2004-2005        Total
     00ADNMA061        $ 138,342    $ 169,946       $ 159,946     $       -     $ 468,234
     04NDHMA002                -           _-         _     -       142,850       142,850
                Total $ 138,342     $ 169,946       $ 159,946     $ 142,850     $ 611,084

3. Our review of 91 member files disclosed 11 files that did not contain documentation that the
   member was a U.S. citizen or national, or a lawful permanent resident. Subgrantee personnel
   believe the documents were misfiled. Member support costs were neither charged to the
   grant nor claimed as match. Of those 11 members, only two half-time members earned an
   education award. As a result of the missing citizenship documentation, we have questioned
   education awards of $4,725. (Also see Compliance Finding #2)




                                              23
                                                                                 Schedule A-5
                                                                                   Page 2 of 2

4. Our review of 91 member files disclosed 4 files that did not contain adequate documentation
   to support the member’s age. Without age documentation, we were unable to determine if
   the member was eligible to participate in the program or if parental consent was secured.
   However, none of those four members earned an education award. As a result, education
   awards have not been questioned. (Also see Compliance Finding #2)

5. Our review of 91 member files disclosed 7 member files in program year 2000-01 that did
   not contain documentation of the member’s high school diploma. Of the seven members
   noted, one earned an education award. As a result, we have questioned the education award
   for that member. However, the education award for the member has already been questioned
   in Note 3. As a result, no costs are questioned here. (Also see Compliance Finding #2)

6. Our review of 91 member files disclosed 4 member files that did not contain adequate time
   sheets to support the hours reported in WBRS. In each case, the cumulative time sheets
   provided were less than the total hours (training and service) reported in WBRS. Of the four
   exceptions noted, only one member earned an education award. As a result, we have
   questioned the education award of that member. (Also see Compliance Finding #2)

                                   Members      Questioned
                                   Earning       Education
                                    Award         Award
                                      1         $ 2,363




                                              24
                                                                                   Schedule A-6
                                                                                     Page 1 of 2
                                     YouthBuild USA
                                Schedule of Award Costs
                     Corporation for National and Community Service
                    Award Numbers 00ADNMA061 and 04NDHMA002
                             July 1, 2000, to March 31, 2005

                                  YouthBuild Portland DD
                           (Portland YouthBuild – Digital Divide)


                                                                       Reference
  Approved Budget (Federal Funds)                        $   323,834   Note 1
  Claimed Costs                                          $   283,067   Note 2
  Questioned Costs
     Education Awards                                    $     2,363   Notes 4, 5, 6
     Match Costs                                               2,714   Note 3
                  Total Questioned Costs                 $     5,077


Notes
1. According to budget schedules for the AmeriCorps National Direct grants, YouthBuild
   Portland DD’s total budget is $323,834. (YouthBuild Portland DD was a subgrantee for
   award 00ADNMA061 only.)

2. Claimed costs represent YouthBuild Portland’s reported expenditures for the program years
   2000-01 through 2002-03.

3. Our review of 31 member files disclosed 1 file that did not contain documentation that the
   member was a U.S. citizen or national, or a lawful permanent resident. All living allowances
   and associated fringe benefits for this member were claimed as match costs. The member did
   not earn an education award. As a result of the missing documentation, we have questioned
   match living allowance and fringe benefits of $2,714. (Also see Compliance and Finding #4)

4. Our review of the member files noted one member file that did not contain adequate
   documentation to support the member’s age. Without age documentation, we were unable to
   determine if the member was eligible to participate in the program or if parental consent was
   secured. No costs have been questioned as the member did not earn an award. However, the
   subgrantee did not maintain the proper documentation, as required by AmeriCorps
   Provisions. (Also see Compliance Finding #2)




                                              25
                                                                                  Schedule A-6
                                                                                    Page 2 of 2

5. Our review of 31 member files disclosed 1 member file in program year 2000-01 that did not
   contain documentation of the member’s high school diploma. The member did not earn an
   education award and, as a result, no costs have been questioned. However, the subgrantee
   did not maintain proper documentation, as required by AmeriCorps Provisions. (Also see
   Compliance Finding #2)

6. Our review of the member files disclosed three files that did not contain adequate time sheets
   to support the hours reported in WBRS. In each case, the cumulative time sheets provided
   were less than the total hours (training and service) reported in WBRS. Only one of these
   members earned an education award. As a result, we have questioned the education award
   earned by the member, of $2,363. (Also see Compliance Finding #2)




                                               26
                                                                                  Schedule A-7
                                                                                    Page 1 of 3
                                     YouthBuild USA
                                Schedule of Award Costs
                     Corporation for National and Community Service
                    Award Numbers 00ADNMA061 and 04NDHMA002
                             July 1, 2000, to March 31, 2005

                                     YouthBuild York
                                   (Crispus Attucks CDC)

                                                                      Reference
  Approved Budget (Federal Funds)                      $   863,465    Note 1
  Claimed Costs                                        $   695,142    Note 2
  Questioned Costs
     Living Allowances                                 $    12,704    Notes 3, 4
     Education Awards                                      163,005    Notes 3, 5, 6, 7
     Match Costs                                           341,363    Notes 3, 4, 8, 9
                  Total Questioned Costs               $   517,072


Notes
1. According to budget schedules for the AmeriCorps National Direct grants, YouthBuild
   York’s total budget is $863,465. ($689,849 for Award 00ADNMA061 and $173,616 for
   Award 04NDHMA002)
2. Claimed costs represent YouthBuild York’s reported expenditures for the both AmeriCorps
   Awards.
                        2000-2001 2001-2002 2002-2003 2004-2005                Total
     00ADNMA061        $ 140,594    $ 209,183    $ 232,424     $        - $ 582,201
     04NDHMA002                -            -            -       112,941      112,941
                Total $ 140,594     $ 209,183    $ 232,424     $ 112,941 $ 695,142

3. Our review of 100 member files disclosed 5 member files that did not contain documentation
   that the member was a U.S. citizen or national, or a lawful permanent resident. Of the five
   member files, four were from award number 00ADNMA061 and one was from
   04NDHMA002, and all five members earned an education award. As a result, we questioned
   the living allowance, match, and education award for those five members as follows: (Also
   see Compliance Finding #1, Finding #2, and Finding #4)

                       Member        Living    Match         Education
                      Exceptions   Allowances   Costs          Award
                          5        $ 10,372   $ 4,407        $ 13,769



                                             27
                                                                                  Schedule A-7
                                                                                    Page 2 of 3

4. During our review of payroll expenditures, we noted two instances where a time sheet was
   not available to support the living allowance. The subgrantee’s internal controls require all
   living allowance payments to be supported with a completed time sheet. As a result, we have
   questioned the living allowance and associated fringe benefits as follows: (Also see
   Compliance Finding #1 and Finding #4)

                             Number of       Living    Match
                             Exceptions    Allowances   Costs
                                 2          $ 2,332   $ 678

5. Our review of 100 member files disclosed 31 member files that did not contain either
   documentation of the member’s high school diploma or a self certification. All 31 members
   earned an education award. As a result, we have questioned education awards earned in
   2000-01. Education awards for 2001-02 and beyond were not questioned as AmeriCorps
   Provisions were changed beginning in 2001-02. Some of the education awards for the
   members in 2000-01 have already been questioned in Note #3. The following summarizes
   the questioned costs: (Also see Compliance Finding #2)

                                                      Ed Award
                      Member        Education        Questioned
                     Exceptions      Award            in Note #3      Total
                        31         $ 25,988          ($ 2,363)     $ 23,625

6. Our review of 100 member files disclosed 15 member files that did not contain adequate
   documentation to support the members’ age. Without age documentation, we were unable to
   determine if the member was eligible to participate in the program or if parental consent was
   secured. All of the 15 members identified earned an education award. As a result, we have
   questioned the education awards for those 15 members. However, some of the education
   awards of these members have already been questioned in Note #5. The following
   summarizes the questioned costs: (Also see Compliance Finding #2)

                                                      Ed Award
                      Member        Education        Questioned
                     Exceptions      Award            in Note #5      Total
                        15         $ 34,809          ($ 2,363)     $ 32,446




                                                28
                                                                                    Schedule A-7
                                                                                      Page 3 of 3

7. Our review of 100 member files disclosed 57 member files that did not contain adequate time
   sheets to support the hours reported in WBRS. In each case, the cumulative time sheets
   provided were less than the total hours (training and service) reported in WBRS. As a result,
   we have questioned the education awards earned by those 57 members. However, some of
   the education awards for these members have already been questioned in Note #3, Note #5,
   and Note #6. The following summarizes the questioned costs: (Also see Compliance
   Finding #2)

                                        Costs          Costs         Costs
            Member      Education   Questioned     Questioned    Questioned
           Exceptions     Award      in Note #3     in Note #5    in Note #6     Total
              57        $ 136,833   ($ 8,691)      ($ 11,813)    ($ 23,164)    $ 93,165

8. Interviews with YouthBuild York personnel, and a review of the general ledger, indicated
   that most of the costs claimed as match were funded by the U.S. Department of Housing and
   Urban Development (HUD). Some of the funds were used as match member support costs,
   which are not allowed per AmeriCorps Provisions. As a result, we have questioned match
   costs as follows: (Also see Compliance Finding #4)

                                               Questioned
                                 Program Year      Cost
                                   2000-2001   $ 28,272
                                   2002-2003     173,285
                                         Total $ 201,557

9. Match costs claimed on the FSR did not agree with the amount per YouthBuild York’s
   accounting records. The amount per the accounting records was less than the amount
   claimed on the FSR and no documentation was provided to support the difference. In
   addition, we noted several transactions for which source documentation was not provided.
   We were unable to determine if the costs claimed were allowable, allocable, and reasonable
   per OMB Circulars. As a result, we have questioned match costs as follows: (Also see
   Compliance Finding #4)

               Questioned
                  Cost
               $ 123,362     Difference between FSR and accounting records
                  11,359     Transactions without supporting documentation
               $ 134,721




                                              29
                                                                                 Schedule A-8
                                                                                   Page 1 of 1
                                     YouthBuild USA
                                Schedule of Award Costs
                     Corporation for National and Community Service
                    Award Numbers 00ADNMA061 and 04NDHMA002
                             July 1, 2000, to March 31, 2005

                                YouthBuild Atlantic City
                              YouthBuild Columbia Heights

                                                                     Reference
  Approved Budget (Federal Funds)                      $   383,161   Note 1
  Claimed Costs                                        $   137,388   Note 2
  Questioned Costs
     Corporation Share                                 $ 137,430     Note 3
     Match Costs                                         422,608     Note 3
                  Total Questioned Costs               $   560,038


Notes
1. According to budget schedules for the AmeriCorps National Direct grants, YouthBuild
   Atlantic City’s and Columbia Heights’ total budget was $300,000 and $83,161, respectively
   (Both entities were subgrantee for award 00ADNMA061 only).

2. In addition to performing five subgrantee field visits to verify and substantiate costs, a
   sample of monthly FSRs from the other subgrantees was selected and documentation was
   requested to support the claimed costs. Our review disclosed that one subgrantee,
   YouthBuild Atlantic City, was unable to provide any supporting documentation because it
   shut down its operations in 2002. All costs claimed by YouthBuild Atlantic City were
   incurred during program year 2000-2001 for award number 00ADNMA061. Our review also
   found that YouthBuild Columbia Heights did not provide source documentation to support
   some of its claimed and match costs. All costs claimed by YouthBuild Columbia Heights
   were incurred during program year 2000-2001 for award number 00ADNMA061. As a
   result, we have questioned subgrantee costs and claimed match costs as follows: (Also see
   Compliance Finding #3 and Finding #4)

                                          Subgrantee  Match
                                             Costs     Costs             Total
           YouthBuild Atlantic City       $ 135,388 $ 367,684         $ 503,072
           YouthBuild Columbia Heights        2,042    54,924            56,966
                                    Total $ 137,430 $ 422,608         $ 560,038




                                             30
        EXHIBIT B

SCHEDULE OF AWARD COSTS:
   EDUCATION AWARDS
                                                                                  Exhibit B
                                                                                 Page 1 of 6
                                    YouthBuild USA
                               Schedule of Award Costs
                    Corporation for National and Community Service
                   Award Numbers 00EDNMA006 and 04EDHMA002
                         September 1, 2000, to March 31, 2005

                                     Approved                   Questioned
             Detail Audits of         Budget        Claimed       Claimed
            Education Awards          Costs           Costs        Costs   Reference
              YouthBuild            $ 373,099      $ 229,534    $      -    Note 1


                                 Total     Members     Member      Questioned
                                Enrolled   Earning       Files     Education
                                Members    Awards      Reviewed     Awards       Reference
Subgrantees
 Unknown (A)                      198         68            5      $  11,479     Note 2
 YouthBuild Kincaid                10          2            2             -
 YouthBuild Hammond                18         18            5         11,812     Note 2
 YouthBuild Delta                  17         14            5         11,812     Note 2
 YouthBuild Florida City           52         18           11         11,812     Note 3
 YouthBuild Sandtown               23          6            5         11,812     Note 4
 YouthBuild Brockton               57         30           26               -
 YouthBuild Brownsville            55         30           17               -
 YouthBuild Hartford               77         23            5         11,812     Note 5
 YouthBuild Baltimore              62          4            4          8,539     Note 6
 YouthBuild Gardena                62         13           13         30,713     Note 7
 YouthBuild Louisville             25         23           23         46,680     Note 8
 YouthBuild Trenton                51         20           20         18,900     Note 9
 YouthBuild Washington             10         10           10               -
 YouthBuild Moreno Valley          21         14           14          5,400     Note 10
                     Totals       738        293          165      $ 180,771     Note 1
(A) The location was not noted in WBRS and YouthBuild personnel were unable to determine
the location of the subgrantee.




                                             31
                                                                                   Exhibit B
                                                                                  Page 2 of 6
Notes
1. According to budget schedules for the education award grants, YouthBuild’s total budget is
   $373,099 ($229,267 for Award 00EDNMA006 and $143,832 for Award 04EDHMA002).
   Claimed costs for both education award grants are $229,534 ($169,267 for Award
   00EDNMA006 and $60,267 for Award 04EDHMA002). The list of subgrantees does not
   represent all subgrantees utilized by YouthBuild. Using a sampling approach, we
   judgmentally selected the subgrantees listed above and performed a review of files for
   AmeriCorps members earning an award. YouthBuild had the following number of
   subgrantees for the Education Award Program:
                                               Program Year
                                    2000-      2002-    2003-       2004-
                                    2001       2003     2004        2005      Total
         00EDNMA006                   9          8       10           -        27
         04EDHMA002                   -          -        -          23        23
2. We selected a sample of members and requested their files. By the end of fieldwork,
   YouthBuild had not provided all the requested files. Without documentation, we were
   unable to determine if some members were eligible and had served the required hours. As a
   result, we have questioned the education award for those members as follows:
                                                               Members
                                             Program           Lacking       Education
            SubGrantee          Award Number   Year             Files         Award
       Unknown                  00EDNMA006 2002-2003                5       $ 11,479
       YouthBuild Hammond       00EDNMA006 2000-2001                5         11,812
       YouthBuild Delta         00EDNMA006 2000-2001                5         11,812
                                                Totals            15        $ 35,103

   Unknown SubGrantee
   A review of the Education Award program data in WBRS indicated numerous members with
   no specific site locations assigned. YouthBuild personnel were unable to determine the site
   location for these members. The following summarizes those members’ questioned
   education awards:




                                             32
                                                                                     Exhibit B
                                                                                    Page 3 of 6

3. YouthBuild Florida City
   This subgrantee certified that 18 members had earned an education award and we selected 11
   of those members for our review. From our review we noted the following deficiencies in the
   member files:
       •   Five of the 11 members did not have documentation of criminal background checks;
       •   Five of the 11 files were missing job descriptions;
       •   Five of the 11 files were missing member evaluations;
       •   Four of the 11 files were missing time sheets to support the hours reported in WBRS;
           and
       •   Five of the 11 files did not document the assigned work site location.
   As a result of the missing documentation noted above, we have questioned education awards
   of $11,812.

4. YouthBuild Sandtown
   This subgrantee certified six members who had earned an education award and we selected
   five of those members for our review. We noted the following deficiencies in the member
   files:
       •   One of the five files did not have documentation of the member’s age;
       •   Three of the five files lacked documentation of the members’ high school diploma;
       •   Two of the five members were under the age of 18, but the files did not have any
           documentation of parental consent;
       •   Documentation of criminal background checks for the five members was not
           provided;
       •   All five files were missing job descriptions;
       •   One of the five files was missing member evaluations;
       •   All five files were missing time sheets to support the hours reported in WBRS; and
       •   All files did not document certification of an earned education award to the National
           Service Trust.
   As a result of the missing documentation noted above, we questioned education awards of
   $11,812.




                                              33
                                                                                  Exhibit B
                                                                                 Page 4 of 6

5. YouthBuild Hartford
   This subgrantee certified that 23 members had earned an education award and we selected 5
   of those members for our review. We noted the following deficiencies in the member files:

       •   One of the five files lacked documentation of the member’s high school diploma;
       •   One of the five members was under the age of 18, but the files did not have any
           documentation of parental consent;
       •   All five files did not have documentation of criminal background checks for the
           members;
       •   All five files were missing job descriptions;
       •   All five files were missing member evaluations;
       •   All five files were missing time sheets to support the hours reported in WBRS; and
       •   All five files did not document certification of an earned education award to the
           National Service Trust.
   As a result of the missing documentation noted above, we questioned education awards of
   $11,812.

6. YouthBuild Baltimore
   This subgrantee certified that four members had earned an education award and we selected
   all of those members for our review. We noted the following deficiencies in the member
   files:
       •   All four files lacked documentation of the members’ high school diploma;
       •   Documentation of criminal background checks for the members was not provided;
       •   All four files were missing job descriptions;
       •   All four files were missing member evaluations;
       •   All four files were missing time sheets to support the hours reported in WBRS;
       •   Two of the four members exited the program early, but the files had no
           documentation indicating the compelling reason for the early exit; and
       •   All four files did not document certification of an earned award to the National
           Service Trust.
   As a result of the missing documentation noted above, we questioned education awards of
   $8,539.




                                             34
                                                                                      Exhibit B
                                                                                     Page 5 of 6

7. YouthBuild Gardena
   This subgrantee certified that 13 members had earned an education award and we selected all
   of those members for our review. We noted the following deficiencies in the member files:
       •   Four of the 13 files lacked documentation of the members’ citizenship status;
       •   Four of the 13 files did not have documentation of the members’ age;
       •   Documentation of criminal background checks for two members was not provided;
       •   Two of the 13 files were missing job descriptions;
       •   Three of the 13 files were missing member evaluations;
       •   All 13 files were missing time sheets to support the hours reported in WBRS; and
       •   Two of the 13 files did not document certification of an earned education award to the
           National Service Trust.
   As a result of the missing documentation noted above, we questioned education awards for
   all 13 members. Each person was a half-time member.

8. YouthBuild Louisville
   This subgrantee certified that 23 members had earned an education award and we selected all
   of them for our review. We noted the following deficiencies in the member files:
       •   One of the 23 files lacked documentation of the member’s citizenship status;
       •   One of the 23 files did not have documentation of the member’s age;
       •   Documentation of criminal background checks for all members was not provided;
       •   All 23 files were missing job descriptions;
       •   All 23 files were missing member evaluations;
       •   All 23 files were missing time sheets to support the hours reported in WBRS; and
       •   16 of the 23 members exited the program early, but their files had no documentation
           of the compelling reason for the early exit.
    As a result of the missing documentation noted above, we questioned education awards of
    $46,680.




                                               35
                                                                                     Exhibit B
                                                                                    Page 6 of 6

9. YouthBuild Trenton
   This subgrantee certified that 20 members had earned an education award and we selected all
   of them for our review. We noted the following deficiencies in the member files:
       •   One of the 20 files lacked documentation of the member’s citizenship status;
       •   One of the 20 files lacked documentation of the member’s high school diploma;
       •   Documentation of criminal background checks for two members was not provided;
       •   Two of the 20 files were missing job descriptions;
       •   Eight of the 20 files were missing member evaluations;
       •   Five of the 20 files were missing time sheets to support the hours reported in WBRS;
           and
       •   Eight of the 20 files did not document certification of an earned education award to
           the National Service Trust

   As a result of the missing documentation noted above, we questioned education awards of
   $18,900.

10. YouthBuild Moreno Valley
    This subgrantee certified that 14 members had earned an education award and we selected all
    of them for our review. We noted the following deficiencies in the member files:
       •   Three of the 14 files were missing time sheets to support the hours reported in WBRS
   As a result of the three member files missing time sheets to support the service hours
   reported, we questioned education awards of $5,400.




                                              36
Office of Inspector General
Corporation for National and Community Service

      REPORT ON COMPLIANCE AND OTHER MATTERS AND ON INTERNAL
       CONTROLS OVER FINANCIAL REPORTING BASED ON AN AUDIT OF
         FINANCIAL SCHEDULES PERFORMED IN ACCORDANCE WITH
                   GOVERNMENT AUDITING STANDARDS

We have audited the Schedules of Award Costs, as presented in Exhibits A and B, that
summarize the claimed costs of YouthBuild under the Corporation awards listed below, and have
issued our report thereon, dated August 26, 2005.

           Program               Award Number           Award Period           Audit Period
 AmeriCorps National Direct      00ADNMA061          07/01/00 – 02/14/04   07/01/00 – 02/14/04
 AmeriCorps National Direct      04NDHMA002          08/04/04 – 08/17/07   08/04/04 – 03/31/05
 Education Award                 00EDNMA006          09/01/00 – 09/25/04   09/01/00 – 09/25/04
 Education Award                 04EDHMA002          06/01/04 – 05/31/07   06/01/04 – 03/31/05

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States.

                                Compliance and Other Matters

Compliance with laws, regulations, and the provisions of the awards is the responsibility of
YouthBuild’s management. As part of obtaining reasonable assurance about whether the
financial schedules are free of material misstatement, we performed tests of compliance with
certain provisions of laws, regulations, and the terms and conditions of the awards,
noncompliance with which could have a direct and material effect on the determination of the
amounts on the financial schedules. However, providing an opinion on compliance with those
provisions was not an objective of our audit, and accordingly, we do not express such an opinion.
The results of our tests disclosed instances of noncompliance or other matters that are required to
be reported under Government Auditing Standards and which are described in the Compliance
Findings section of this report. Instances of noncompliance include non-adherence to
requirements, or violations of prohibitions contained in statutes, regulations, and the award
provisions.

Compliance Findings

The results of our tests of compliance disclosed the following instances of noncompliance:



                                                37
Finding No. 1: Unallowable Living Allowances and Member Files Lacking Documentation
to Support Proper Enrollment and Participation in AmeriCorps
During the audit of six subgrantees, we noted several instances where living allowances were
paid to AmeriCorps members who were determined to be ineligible to participate in the program
as documentation was not available to support the costs claimed. As a result, living allowances
and associated fringe benefits totaling $95,727 from award number 00ADNMA061 have been
questioned as follows:

          Subgrantee           2000-2001       2001-2002    2002-2003   Total         Note
    YouthBuild Los Angeles      $ 28,251        $ 35,605     $      - $ 63,856        (A)
    YouthBuild Portland DD             -               -       19,167   19,167        (B)
    YouthBuild York                4,008           8,696            -   12,704        (C)
                         Total $ 32,259        $ 44,301      $ 19,167 $ 95,727

 (A) YouthBuild Los Angeles
     Exceptions:
      2) Our review of 86 AmeriCorps member files disclosed 57 files that lacked
          documentation supporting the members’ citizenship status. Of the 57, 56 members
          were paid living allowances (19 in program year 2000-01 and 37 in program year
          2001-02). Without documentation, we were unable to determine if the members were
          eligible to participate in the program and earn living allowances. (Also see Schedule
          A-2, Note 3).

       3) We noted seven members who were paid living allowances and the amount claimed
          as the Corporation share exceeded 85 percent of the minimum living allowance. Six
          of the seven members were from program year 2000-2001 and one member was from
          2001-2002. The living allowance and fringe benefits of the one member in program
          year 2001-2002 has already been questioned in Exception #1. (Also see Schedule A-
          2, Note 4).

       4) Our review of living allowances noted 58 instances where no time sheets were
          available to support the members’ living allowance. The subgrantees’ internal
          controls require all living allowance payments to be supported with a time sheet.
          (Also see Schedule A-2, Note 5).

 (B) YouthBuild Portland DD (Digital Divide)
     During our review of living allowances we noted that the payroll register for April through
     June 2003 was missing. Without the payroll register, we were unable to substantiate the
     amount of living allowance actually paid to the AmeriCorps members. (Also see Schedule
     A-6, Note 3).

 (C) YouthBuild York
     Exceptions:
      1) Our review of 100 AmeriCorps member files disclosed 5 files that lacked



                                              38
           documentation supporting the members’ citizenship status. Four of the five members
           were paid living allowances (one in program year 2000-01 and three in program year
           2001-02). Without the documentation, we were unable to determine if the members
           were eligible to participate in the program and earn living allowances. (Also see
           Schedule A-7, Note 3)

        2) Our review of living allowances noted two instances where no time sheets were
           available to support the members’ living allowance. The subgrantees’ internal
           controls require all living allowance payments to be supported with a time sheet.
           (Also see Schedule A-7, Note 4)

In addition, the audit noted numerous instances where AmeriCorps member files lacked proper
documentation to support either the enrollment or participation of the member in the program.
Specifically the audit noted the following exceptions:

   A.   Missing documentation of high school diploma or dropout date.
   B.   AmeriCorps contract was not signed by the enrolled member.
   C.   Missing mid-term and/or final evaluations.
   D.   Time sheets were not detailed enough to determine if training was given to the member.
        As such, it could not be determined if an orientation was received by the member.
   E.   Description of the job position was not documented in the files.
   F.   Assigned job location was not documented in the files.
   G.   Members’ start/end date was not documented in the files.
   H.   Education Award Certification was not signed by authorized personnel.

                          Total           Member
                         Members            Files                Exceptions Noted
        Subgrantee       Enrolled         Reviewed    A    B    C    D     E    F    G    H
 Award 00ADNMA061 & 04NDHMA002
 YouthBuild Los Angeles     86                86      53   50   57   34    -   14   60    51
 YouthBuild Philadelphia   646               100       -   11    -    -    -    -    -     -
 YouthBuild St. Louis      176               89        -   6     -    -    -    -    -     -
 YouthBuild Portland       184                91      21    6   5     -    3    -    -     -
 YouthBuild Portland DD     62                31       -    1    -    -    -    -    -     -
 YouthBuild York           237               100       -   75   73   32   75    -    -     -

 Award 00EDNMA006 & 04EDHMA002
 YouthBuild Florida City   52                11        -   -     5    -    5    5    -    -
 YouthBuild Sandtown       23                5         -   -     1    -    5    5    -    5
 YouthBuild Hartford       77                 5        -   -     5    -    5    -    -    5
 YouthBuild Baltimore      62                 4        -   -     4    -    4    -    -    5
 YouthBuild Gardena        62                13        -   -     3    -    2    -    -    2
 YouthBuild Louisville     25                23        -   -    23    -   23    -    -    -
 YouthBuild Trenton        51                20        -   -     8    -    2    -    -    8




                                              39
AmeriCorps Provisions (2001 ed.), A. Definitions, Number 9 – Member states:
     “Member means an individual: … b. Who is a U.S. Citizen, U.S. national or lawful
     permanent resident alien of the United States.”

AmeriCorps Provisions (2001 ed.), B. Special Provisions, Number 11 – Living Allowances, Other
In-Service Benefits and Taxes states:

      a. Living allowances... The Corporation will only fund up to 85 percent of the
      minimum living allowance. A minimum of 15 percent must be matched by non-
      federal sources. A program that wants to provide a living allowance in excess of
      the stated minimum must provide a Grantee match for all funds over 85% of that
      stated amount. If the program is permitted to provide a living allowance that is less
      than the stated minimum, the Corporation will only fund 85 percent of the actual
      amount.

AmeriCorps Provisions (2001 ed.), C. General Provisions, Number 21 – Financial Management
Provisions states:

      c. Time and Attendance Records... ii. AmeriCorps Members. The Grantee must
      keep time and attendance records on all AmeriCorps members in order to
      document their eligibility for in-service and post-service benefits. Time and
      attendance records must be signed both by the member and by an individual with
      oversight responsibilities for the member.

AmeriCorps Provisions (2001 ed.), C. General Provisions, Number 26 – Retention of Records
states:

      The Grantee must retain and make available all financial records, supporting
      documentation, statistical records, evaluation and program performance data,
      member information and personnel records for 3 years from the date of the
      submission of the final Financial Status Report…

AmeriCorps Provisions (2001 ed.), B. Special Provisions, Number 7, Training, Supervision, And
Support, states:

   b. Member Contracts. The Grantee must require that members sign contracts that, at a
   minimum, stipulate the following:
      i. The minimum number of service hours and other requirements (as developed by the
      Program) necessary to successfully complete the term of service and to be eligible for
      the education award;
      ii. Acceptable conduct;
      iii. Prohibited activities;
      iv. Requirements under the Drug-Free Workplace Act;
      v. Suspensions and termination rules;
      vi. The specific circumstances under which a member may be released for cause;



                                               40
      vii. The position description;
      viii. Grievance procedures; and
      ix. Other requirements as established by the Program.

   c. Training. Consistent with the approved budget, the Grantee must provide members
   with the training, skills, knowledge and supervision necessary to perform the tasks
   required in their assigned project positions, including specific training in a particular field
   and background information on the community served. The Grantee must conduct an
   orientation for members and comply with any pre-service orientation or training required
   by the Corporation.

      *       *       *

   g. Performance Reviews. The Grantee must conduct at least a mid-term and end-of-term
   written evaluation of each member’s performance.

AmeriCorps Provisions (2001 ed.), B. Special Provisions, Number 14 Member Records And
Confidentiality, states:

   a. Record-Keeping. The Grantee must maintain verifiable records which document each
   member’s eligibility to serve based upon citizenship or lawful permanent residency, birth
   date, level of education attainment, date of high school diploma or equivalent certificate
   (if attained), participation start date and end date, hours of service per week, location of
   service activities and project assignment. The records must be sufficient to establish that
   the individual was eligible to participate in the Program and that the member successfully
   completed the Program requirements with a minimum of 1700 hours of participation as a
   full-time member, 900 hours of participation as a part-time member, or 300-900 hours of
   participation as a reduced part-time member. The signed member contract must also be
   maintained in grantee files.
   b. No High School Diploma. If a member does not have a high school diploma or its
   equivalent at the time of enrollment, the Grantee must maintain a record of the member’s
   elementary or high school drop-out date, the member’s written agreement to obtain a high
   school diploma or its equivalent before using the education award, and if applicable,
   verification of the member’s enrollment at an institution of higher education on an ability
   to benefit basis and eligibility for funds under section 484 of the Higher Education Act.
   If the member has been determined to be incapable of obtaining a high school diploma or
   its equivalent, the Grantee must retain a copy of the supporting independent evaluation.

AmeriCorps Provisions (2001 ed.), B. Special Provisions, Number 12 Post-Service Education
Awards, states:

   In order for a member to receive a post-service education award from the National
   Service Trust, the Grantee must certify to the National Service Trust that the member is
   eligible to receive the education benefit. The Grantee must notify the National Service
   Trust on a form provided by the Corporation . . . when it enrolls a member for a term of



                                                 41
   service.

YouthBuild did not ensure that its subgrantees had an adequate system for record retention. Not
maintaining the appropriate documentation to support either the enrollment or participation of
members in the program limits YouthBuild’s and the subgrantee’s ability to ensure that
AmeriCorps members are eligible to participate in the program. In addition, the lack of
documentation may lead to the Corporation funding living allowances and education awards to
ineligible individuals.

This finding is also considered to be an internal control weakness.

Recommendation
We recommend that the Corporation determine the allowability of the costs questioned and
recoup costs from subgrantees that are not allowable and allocable to the grants, including
administrative costs applied to the questioned costs.

In addition, because the subgrantees’ staff was not fully aware of AmeriCorps provisions with
respect to living allowances, we recommend that the Corporation instruct YouthBuild to develop
training programs and monitor subgrantees to ensure the following:

   1.   Living allowances are only paid to eligible members;
   2.   Documentation of the members’ citizenship status is maintained in the files;
   3.   The Corporation’s share of living allowance is within the 85 percent limitation; and
   4.   Financial records are adequately maintained to support the amounts claimed.

YouthBuild’s Response
YouthBuild USA monitors and trains sites through bi-monthly individual site and group
conference calls. These calls provide an additional check-in point for subgrantees to ask
questions and for YouthBuild USA to provide updates, reminders, and clarification. YouthBuild
USA has also implemented a desktop monitoring tool which includes reviews of required
documents from member files and member timesheets among other things. This tool further
allows us to monitor subgrantees’ compliance with the AmeriCorps Provisions. Further,
YouthBuild USA now has a full-time AmeriCorps Financial Manager who has been an employee
with us for the past two years and reviews all AmeriCorps information. Her consistency and
accuracy have resulted in no questioned costs for this finding in the mist recent grant year.

(See Appendix A for the complete response)

In addition, YouthBuild USA has initiated a protocol to help subgrantees manage staff transitions
and to train new staff. When YouthBuild USA learns about a staff transition, we hold a
conference call with the site to introduce ourselves to the new staff member, to provide
appropriate training for the new staff person based on her or his role in the subgrantee’s
organization, and to answer questions. YouthBuild USA has also established a document
maintenance and storage requirements are included in the subgrantee contract. In this contract,
subgrantees agree to “retain and make available all financial reports, supporting documentation,



                                                42
statistical records, evaluation and program performance data, member information and personnel
records for three years from the date of the submission of the final FSR by YouthBuild USA.”


Auditor’s Comment
We recognize and concur with the changes implemented by YouthBuild to review and retain all
pertinent documentation.




                                             43
Finding No. 2: Questioned Education Awards
During the audit of six subgrantees, documentation was not available to substantiate that
education award requirements were met. As such, we have questioned $987,969 of education
awards as follows:
      National Direct AmeriCorps (00ADNMA061 & 04NDHMA002)                 $ 807,198
      Education Award Program (00EDNMA006 & 04EDHMA002)                      180,771
                                                                           $ 987,969
National Direct AmeriCorps Program
           Subgrantee          2000-2001 2001-2002      2002-2003      Total     Note
   Award 00ADNMA061
    YouthBuild Los Angeles     $ 35,437 $ 39,392        $   9,450   $ 84,279     (A)
    YouthBuild Philadelphia      184,275  134,663         219,712     538,650    (B)
    YouthBuild St. Louis           7,088    4,725               -      11,813    (C)
    YouthBuild Portland            7,088        -               -       7,088    (D)
    YouthBuild Portland DD         2,363        -               -       2,363    (E)
    YouthBuild York               54,311   52,779          53,552     160,642    (F)
                    Sub-Total $ 290,562 $ 231,559       $ 282,714   $ 804,835

                                                Award 04NDHMA002 2004-2005
                                                    YouthBuild York   2,363       (F)
                                                          Sub-Total $ 2,363

                                                              Total $ 807,198
Education Award Program
           Subgrantee         2000-2001 2002-2003       2003-2004      Total     Note
   Award 00EDNMA006
   YouthBuild Unknown         $      - $ 11,479         $       -   $ 11,479
   YouthBuild Hammond           11,812         -                -      11,812
   YouthBuild Delta             11,812         -                -      11,812
   YouthBuild Florida City      11,812         -                -      11,812
   YouthBuild Sandtown          11,812         -                -      11,812
   YouthBuild Hartford               -    11,812                -      11,812
   YouthBuild Baltimore              -         -            8,539       8,539
   YouthBuild Gardena                -         -           30,713      30,713
   YouthBuild Louisville             -         -           46,680      46,680
   YouthBuild Trenton                -         -           18,900      18,900
                    Sub-Total $ 47,248 $ 23,291         $ 104,832   $ 175,371

                                             Award 04EDHMA002 2004-2005
                                         YouthBuild Moreno Valley   5,400
                                                        Sub-Total $ 5,400

                                                              Total $ 180,771    (G)



                                           44
(A) YouthBuild Los Angeles

    Exceptions:
     1) Our review of 86 AmeriCorps member files disclosed 57 files that lacked
        documentation supporting the members’ citizenship status. (Also see Schedule A-2,
        Note 3)

     2) We noted 34 member files where no time sheets or other documentation was
        available to support the total service hours reported in WBRS. (Also see Schedule
        A-2, Note 6)

     3) During our review of member files, we noted 19 member files that did not contain
        adequate documentation to support the member’s age. (Also see Schedule A-2, Note
        7)

     4) During our review of member files, we noted 52 member files that did not contain
        documentation of the members’ high school diploma or a self certification for
        program year 2001-02 and beyond. (Also see Schedule A-2, Note 8)

     5) We noted 15 instances where the members’ files did not contain adequate time sheets
        to support the hours reported in WBRS. In each case, the cumulative time sheets
        provided were less than the total hours (training and service) reported in WBRS.
        (Also see Schedule A-2, Note 9)

     6) A review of the member files disclosed three members that exited the AmeriCorps
        program early and earned a prorated education award. However, the files did not
        indicate a compelling circumstance for the early exit. (Also see Schedule A-2, Note
        10)

(B) YouthBuild Philadelphia

    Exceptions:
     1) Time sheets for all 463 half-time members were not signed by the members. (Also
        see Schedule A-3, Note 4)

     2) During our review of member files, we noted 22 member files that did not contain
        documentation of the members’ high school diploma or a self-certification for
        program year 2001-02 and beyond. (Also see Schedule A-3, Note 5)

     3) Our review of 100 AmeriCorps member files disclosed 17 files that lacked
        documentation supporting the member’s citizenship status. (Also see Schedule A-3,
        Note 6)

     4) During our review of 100 member files, we noted 12 member files that did not
        contain adequate documentation to support the member’s age. (Also see Schedule A-



                                           45
        3, Note 7)

(C) YouthBuild St. Louis
    We noted five instances where the members’ files did not contain adequate time sheets to
    support the hours reported in WBRS. In each case, the cumulative time sheets provided
    were less than the total hours (training and service) reported in WBRS. (Also see
    Schedule A-4, Note 3)

(D) YouthBuild Portland

    Exceptions:
     1) Our review of 91 AmeriCorps member files disclosed 11 files lacked documentation
        supporting the member’s citizenship status. (Also see Schedule A-5, Note 3)

     2) During our review of member files, we noted four member files that did not contain
        adequate documentation to support the member’s age. (Also see Schedule A-5, Note
        4)

     3) During our review of member files, we noted seven member files that did not contain
        documentation of the member’s high school diploma or a self certification for
        program year 2001-02 and beyond. (Also see Schedule A-5, Note 5)

     4) We noted four instances where the member’s files did not contain adequate time
        sheets to support the hours reported in WBRS. In each case, the cumulative time
        sheets provided were less than the total hours (training and service) reported in
        WBRS. (Also see Schedule A-5, Note 6)

(E) YouthBuild Portland DD

    Exceptions:
     1) During our review of member files, we noted one file that did not contain adequate
        documentation to support the member’s age. (Also see Schedule A-6, Note 4)

     2) During our review of member files, we noted one member file that did not contain
        documentation of the member’s high school diploma for program year 2000-01.
        (Also see Schedule A-6, Note 5)

     3) We noted three instances where the member’s files did not contain adequate time
        sheets to support the hours reported in WBRS. In each case, the cumulative time
        sheets provided were less than the total hours (training and service) reported in
        WBRS. (Also see Schedule A-6, Note 6)

(F) YouthBuild York

    Exceptions:



                                           46
       1) Our review of 100 AmeriCorps member files disclosed 5 files lacking documentation
          to support the member’s citizenship status. (Also see Schedule A-7, Note 3)

       2) During our review of member files, we noted 31 member files that did not contain
          documentation of the member’s high school diploma or a self-certification for
          program year 2001-02 and beyond. (Also see Schedule A-7, Note 5)

       3) During our review of member files, we noted 15 member files that did not contain
          adequate documentation to support the member’s age. (Also see Schedule A-7, Note
          6)

       4) We noted 57 instances where the member’s files did not contain adequate time sheets
          to support the hours reported in WBRS. In each case, the cumulative time sheets
          provided were less than the total hours (training and service) reported in WBRS.
          (Also see Schedule A-7, Note 7)

  (G) Education Award Program

      Our review of 165 Education Award member files noted either missing member files or
      files that did not contain all the necessary documents to support the member’s eligibility
      and satisfactory completion of the Education Award program. Specifically, we noted the
      following exceptions:
           1) Unable to locate 15 member files;
           2) Documentation of criminal background checks for members was not provided for
               46 members;
           3) 62 files were missing time sheets to support the hours reported in WBRS;
           4) Six files lacked documentation of the members’ citizenship status;
           5) Nine files lacked documentation of the members’ high school diploma;
           6) Six files did not have documentation of the member’s age;
           7) Three members were under the age of 18, but the files did not have any
               documentation of parental consent;
           8) 25 files did not document certification of earning award to the National Service
               Trust;
           9) 18 members exited early, but the files had no documentation of the compelling
               reason for the early exit;
           10) 49 files were missing member evaluations;
           11) 46 files were missing job descriptions; and
           12) Five files did not document the assigned work location.

      (Also see Exhibit B, Note 2 through Note 10)

AmeriCorps Provisions, (2001 ed.) A. Definitions, Number 9 – Member states:
     Member means an individual: … b. Who is a U.S. Citizen, U.S. national or lawful
     permanent resident alien of the United States. c. Who is at least 17 years of age at
     the commencement of service. d. Has a high school diploma or an equivalency



                                              47
      certificate.

AmeriCorps Provisions, (2001 ed.) B. Special Provisions, Number 14 – Member Records and
Confidentiality states:
   a. Record-Keeping. The Grantee must maintain verifiable records which document each
   member’s eligibility to serve based upon citizenship or lawful permanent residency, birth
   date, level of education attainment, date of high school diploma or equivalent certificate
   (if attained), participation start date and end date, hours of service per week, location of
   service activities and project assignment. The records must be sufficient to establish that
   the individual was eligible to participate in the Program and that the member successfully
   completed the Program requirements with a minimum of 1700 hours of participation as a
   full-time member, 900 hours of participation as a part-time member, or 300-900 hours of
   participation as a reduced part-time member. The signed member contract must also be
   maintained in grantee files.

   b. No High School Diploma. If a member does not have a high school diploma or its
   equivalent at the time of enrollment, the Grantee must maintain a record of the member’s
   elementary or high school drop-out date, the member’s written agreement to obtain a high
   school diploma or its equivalent before using the education award, and if applicable,
   verification of the member’s enrollment at an institution of higher education on an ability
   to benefit basis and eligibility for funds under section 484 of the Higher Education Act.
   If the member has been determined to be incapable of obtaining a high school diploma or
   its equivalent, the Grantee must retain a copy of the supporting independent evaluation.

AmeriCorps Provisions, (2001 ed.) C. General Provisions, Number 21c – Financial Management
Provisions:
      ii. AmeriCorps Members. The Grantee must keep time and attendance records on
      all AmeriCorps members in order to document their eligibility for in-service and
      post-service benefits. Time and attendance records must be signed both by the
      member and by an individual with oversight responsibilities for the member.

AmeriCorps Provisions, (2001 ed.) B. Special Provisions, Number 9 – Release From
Participation:
       a. Compelling Circumstances… If the member resigns for any of these reasons or
       other reasons that are within his or her control, the individual should receive no
       portion of the AmeriCorps education award.Grantees must make these
       determinations based on these criteria and indicate the reasons for early
       termination on the End-of-Term-of-Service forms.

AmeriCorps Provisions, (2001 ed.) B. Special Provisions, Number 6 – Eligibility, Recruitment,
and Selection states:
      h. Criminal Record Checks. Programs with members or employees who have
      substantial direct contact with children (as defined by state law) or who perform
      service in the homes of children or individuals considered vulnerable by the
      program, shall, to the extent permitted by state and local law, conduct criminal



                                               48
      record checks on these members or employees as part of the screening process.
      This documentation must be maintained within member or employee files, or
      otherwise consistent with state law.

AmeriCorps Provisions, (2001 ed.) B. Special Provisions, Number 16 – Reporting Requirements
states:
        b. AmeriCorps Member-Related Forms. … iii. Exit/End-of-Term-of-Service
        Forms. Member Exit/End-of-Term-of-Service Forms must be submitted no later
        than 30 days after a member exits the program or finishes his/her term or service.

YouthBuild did not ensure that its subgrantees understood AmeriCorps eligibility requirements
and the requirements to earn an education award. In addition, subgrantees did not have an
adequate system to retain records as required by the Provisions. As a result, education awards
have been granted to members whose eligibility status was not properly documented and/or to
members whose time sheets did not match the hours required to earn the award.

This finding is also considered to be an internal control weakness.

Recommendation
We recommend that the Corporation determine the allowability of the questioned education
awards and recoup costs and applicable administrative costs that are not allowable or allocable to
the grant award.

In addition, because subgrantee staff was apparently not fully aware of the AmeriCorps
Provisions with respect to eligibility and earning an education award, we recommend that the
Corporation instruct YouthBuild to train and monitor subgrantees to ensure only eligible
members with properly documented files and the necessary hours completed are granted
education awards.

YouthBuild’s Response
In addition to the annual conference, YouthBuild USA monitors and trains sites through bi-
monthly individual site and group conference calls that provide an opportunity for YouthBuild
USA to provide updates, reminders, and clarifications. YouthBuild USA has also implemented a
desktop monitoring tool which includes reviews of required documents from member files and
member timesheets amount other things. Finally, YouthBuild USA’s updated site visit protocol
also requires that the site’s WBRS data be analyzed thoroughly prior to the visit and that one-
third of the past year’s member files plus one-third of current member files be reviewed during
the visit. Service hours from the time logs in the member file are checked to ensure that they
match the service hours recorded in WBRS.

Auditor’s Comment
We recognize and concur with the changes implemented by YouthBuild to review WBRS data
and member files for completeness and accuracy.




                                                49
Finding No. 3: – Unsupported or Inadequately Documented Other Direct Costs
During our audit we noted other direct costs charged to the AmeriCorps grants that were either
not supported with any source documentation or inadequately documented. Without adequate
source documentation, we were unable to determine if the costs were allowable, allocable, and
reasonable per AmeriCorps Provisions. As such, we have questioned $190,390 of other direct
costs charged to award 00ADNMA061 as follows:

       Grantee/Subgrantee        2000-2001 2001-2002           2002-2003   Total        Note
  YouthBuild Atlantic City       $ 135,388 $      -            $      - $ 135,388       (A)
  YouthBuild Columbia Heights        2,042        -                   -     2,042       (A)
  YouthBuild Philadelphia           17,642   14,648              20,670    52,960       (B)
                           Total $ 155,072 $ 14,648            $ 20,670 $ 190,390

  (A) YouthBuild (parent)
      In addition to performing five subgrantee field visits to verify and substantiate costs, a
      sample of monthly FSRs from the other subgrantees was selected and documentation was
      requested to support the claimed costs. Our review disclosed one subgrantee, YouthBuild
      Atlantic City, was unable to provide any support because it shut down its operations in
      2002, and YouthBuild Columbia Heights did not provide source documentation to support
      some of the claimed costs. (Also see Schedule A-8, Note 3)

  (B) YouthBuild Philadelphia
      Our review of Other Direct Costs disclosed 34 instances where adequate documentation
      was not provided to support the costs claimed. (Also see Schedule A-3, Note 3)

AmeriCorps Provisions, (2001 ed.) C. General Provisions, Number 21 – Financial Management
Provisions:
      a. General. The Grantee must maintain financial management systems that include
      standard accounting practices, sufficient internal controls, a clear audit trail and
      written cost allocation procedures as necessary. Financial management systems
      must be capable of distinguishing expenditures attributable to this Grant from
      expenditures not attributable to this Grant…

      b. Source documentation. The Grantee must maintain adequate supporting
      documents for its expenditures (federal and non-federal) and in-kind contributions
      made under this Grant. Costs must be shown in books or records [e.g., a
      disbursement ledger or journal], and must be supported by a source document, such
      as a receipt, travel voucher, invoice, bill, in-kind voucher, or similar document.

AmeriCorps Provisions, (2001 ed.) C. General Provisions, Number 26 – Retention of Records:
     The Grantee must retain and make available all financial records, supporting
     documentation, statistical records, evaluation and program performance data,
     member information and personnel records for 3 years from the date of the
     submission of the final Financial Status Report (SF 269A). If an audit is started
     prior to the expiration of the 3-year period, the records must be retained until the



                                              50
      audit findings involving the records have been resolved and final action taken.

YouthBuild subgrantees did not have an adequate system to retain records as required by the
AmeriCorps Provisions. As a result, Corporation funds may have been used to pay for other
direct costs that were not adequately documented to determine if the costs claimed were
allowable, allocable, and reasonable under the AmeriCorps Provisions.

This finding is also considered to be an internal control weakness.

Recommendation
We recommend that the Corporation determine the allowability of the costs questioned and
recoup costs that are not allowable or allocable to the grant award including applied
administrative costs.

Because grantee and subgrantee staff was apparently not fully aware of the AmeriCorps
Provisions with respect to other direct costs charged to the grant, we also recommend that the
Corporation instruct YouthBuild to train and monitor subgrantees to ensure that other direct costs
claimed are allocable to the AmeriCorps program and adequately supported with source
documents.

YouthBuild’s Response
YouthBuild Atlantic City ceased operations and closed in 2002 and was funded more than five
years ago. Since YouthBuild USA did not require source documentation at that time from its
subgrantees, we did not have any information on file and have no way of acquiring if from the
program. YouthBuild Columbia Heights experienced significant staff turnover during the time
in question. For future protection, we will ask any future grantee that closes to turn over all its
AmeriCorps-related financial and member files to YouthBuild USA at the time of closing.

In addition, we disagree with some of the questioned direct costs for YouthBuild Philadelphia.
The AmeriCorps Provisions do not require that the subgrantee provide a sign-in sheet concerning
utilizing bus/subway tokens. The Provisions refer to source documentation only, which was
provided by YouthBuild Philadelphia. The subgrantee’s program policy did not state that sign-in
sheets were needed to provide the member with transportation tokens. This expense totals
$31,123.05 of the program’s $52,960 of questioned costs. We argue that this finding is
unreasonable and that the program should not be held responsible for policies established by the
auditors and not the Corporation for National Community Service. Also, we acknowledge that
American Express bills are not source documents; on the other hand, we would argue that
detailed American Express bills of $14,300 adequately reflect where the charges were spent; and
therefore should be considered sufficient documentation.


Auditor’s Comment
We recognize and concur with the changes implemented by YouthBuild to retain financial and
member files from subgrantees when the subgrantee ceases operations.




                                                51
We also agree the AmeriCorps Provisions do not specify a requirement for sign-in sheets
concerning the use of bus/subway tokens. However, the only documentation provided was the
receipt indicating the purchase of the tokens. No other documentation was provided to indicate
who took the tokens and how they were spent, thus we were unable to determine if the expense
was allocable to the AmeriCorps grants. In addition, detailed American Express statements were
not provided to the auditors and as such we were unable to determine if the costs were allocable
to the AmeriCorps grants. As a result, the finding and questioned costs remain unchanged.




                                              52
Finding No. 4: – Unallowable and Unallocable Match Costs
During the audit we noted match member support costs that were claimed for AmeriCorps
members determined to be ineligible. In addition, we also noted some match costs that were
either unsupported or inadequately supported with source documentation. As a result, we have
questioned match costs as follows:

     Grantee/Subgrantee         2000-2001       2001-2002     2002-2003       Total      Note
Award 00ADNMA061
YouthBuild                     $         -     $         - $ 243,292 $ 243,292            (A)
YouthBuild Atlantic City           367,684               -           -     367,684        (G)
YouthBuild Columbia Heights         54,924               -           -      54,924        (G)
YouthBuild Los Angeles              80,646          65,811      55,444     201,901        (B)
YouthBuild Philadelphia          1,644,430       1,573,087     784,919   4,002,436        (C)
YouthBuild St. Louis                     -               -   1,017,191   1,017,191        (D)
YouthBuild Portland DD                   -           2,714           -       2,714        (E)
YouthBuild York                    164,581           3,497     173,285     341,363        (F)
                     Sub-Total $ 2,312,265     $ 1,645,109 $ 2,274,131 $ 6,231,505

                                                    Award 04NDHMA002 2004-2005
                                                   YouthBuild Philadelphia $ 22,800       (C)
                                                                Sub-Total $  22,800

                                                                    Total $ 6,254,305

  (A) YouthBuild
      YouthBuild’s financial management system is not adequate to provide a clear audit trail
      for the match costs claimed on the aggregate FSR. YouthBuild booked match costs for
      the AmeriCorps program into various funds/cost centers based on the funding source of
      the expensed item. However, there were no specific account codes to distinguish
      expenses related to the AmeriCorps versus other programs booked in the same fund/cost
      center. As such, YouthBuild was unable to identify which transactions in the various
      funds/cost centers were claimed as match on the aggregate FSR. In addition, YouthBuild
      personnel were unable to determine the methodology of calculating the claim amount
      from each fund/cost center. From reconstructed records, we were only able to substantiate
      part of the match costs. (Also see Schedule A-1, Note 4)


  (B) YouthBuild Los Angeles (PACE)

      Exceptions:
       1) Our review of 86 AmeriCorps member files disclosed 57 files lacked documentation
          supporting the members’ citizenship status. (Also see Schedule A-2, Note 3)

       2) We noted 34 member files where no time sheets or other documentation was
          available to support the total service hours reported in WBRS. (Also see Schedule A-



                                              53
        2, Note 6)

     3) Our review of payroll expense noted 58 instances where no time sheets were
        available to support the members’ living allowance. The subgrantee’s internal
        controls require all living allowance payments to be supported with a time sheet.
        (Also see Schedule A-2, Note 5)

     4) Our review of payroll expense disclosed living allowances paid to members who
        were not enrolled in WBRS and for whom member files were not maintained. (Also
        see Schedule A-2, Note 11)

     5) Interviews conducted with PACE personnel and our review of the general ledger
        indicated that a majority of the costs claimed as match was funded from HUD.
        PACE was able to identify a small portion of match costs, $19,260, which was
        donated by a private source. (Also see Schedule A-2, Note 12)

(C) YouthBuild Philadelphia

    Exceptions:
     1) All living allowances paid to half-time members were claimed as match costs. Our
        review of match costs disclosed that the match costs were funded by HUD. No other
        documentation was provided to substantiate that a non-Federal source funded the
        match costs. (Also see Schedule A-3, Note 8)

     2) Aggregate FSR data obtained from YouthBuild indicated match costs claimed by
        YouthBuild Philadelphia of $5,021,561. However, review of accounting records and
        monthly FSRs, the total match costs should be $4,932,828. The variance of $88,733
        was not supported with accounting records or source documents. Personnel at
        Philadelphia speculate the error may have been caused by YouthBuild double-
        counting some of the member costs. (Also see Schedule A-3, Note 9)

     3) During our substantive testing of the match costs, we noted that the subgrantee was
        having difficulty locating the source documents to support match costs. (Also see
        Schedule A-3, Note 10)

     4) Our review of 100 member files disclosed 17 files lacked documentation supporting
        the members’ citizenship status. (Also see Schedule A-3, Note 6)

(D) YouthBuild St. Louis

    Exceptions:
     1) Costs claimed on the FSR for award number 00ADNMA061 did not reconcile to the
        subgrantee’s accounting records and documentation was not provided to support the
        difference. (Also see Schedule A-4, Note 4)




                                           54
       2) Living allowances paid to members were claimed as match costs. Discussions with
          personnel at St. Louis indicated the match costs were funded by HUD. No
          documentation was provided to substantiate that a non-Federal funding source
          contributed to the match costs. (Also see Schedule A-4, Note 5)

  (E) YouthBuild Portland DD
       Our review of 31 member files disclosed one member file in Program Year 2001-02 that
       did not contain documentation to support that the member was a U.S. citizen or national,
       or a lawful permanent resident. (Also see Schedule A-6, Note 3)


  (F) YouthBuild York

      Exceptions:
       1) Our review of 100 member files disclosed five member files not containing
          documentation to support that the member was a U.S. citizen or national, or a lawful
          permanent resident. (Also see Schedule A-7, Note 3)

       2) A review of the general ledger and discussions with subgrantee personnel disclosed
          that most of the costs claimed as match were funded from HUD. Some of the HUD
          funds were used as match member support costs. (Also see Schedule A-7, Note 8)

       3) Match costs claimed on the FSR did not agree with the amount per YouthBuild
          York’s accounting records and no documentation was provided to support the
          difference. We also noted several transactions in which source documentation was
          not provided to support the costs. (Also see Schedule A-7, Note 9)

       4) During our review of living allowances, we noted two instances where a time sheet
          was not available to support payment. The subgrantee’s internal controls require all
          living allowance payments to be supported with a completed time sheet. (Also see
          Schedule A-7, Note 4)

  (G) YouthBuild Atlantic City and Columbia Heights
      YouthBuild Atlantic City was unable to provide any support because they shut down their
      operations, and YouthBuild Columbia Heights did not provide source documentation to
      support some of the claimed match costs. (Also see Schedule A-8, Note 3)

AmeriCorps Provisions, (2001 ed.) C. General Provisions, Number 21 – Financial Management
Provisions:
      a. General. The Grantee must maintain financial management systems that include
      standard accounting practices, sufficient internal controls, a clear audit trail and
      written cost allocation procedures as necessary. Financial management systems
      must be capable of distinguishing expenditures attributable to this Grant from
      expenditures not attributable to this Grant…




                                              55
      b. Source documentation. The Grantee must maintain adequate supporting
      documents for its expenditures (federal and non-federal) and in-kind contributions
      made under this Grant. Costs must be shown in books or records [e.g., a
      disbursement ledger or journal], and must be supported by a source document, such
      as a receipt, travel voucher, invoice, bill, in-kind voucher, or similar document.

AmeriCorps Provisions, (2001 ed.) C. General Provisions, Number 26 – Retention of Records:
     The Grantee must retain and make available all financial records, supporting
     documentation, statistical records, evaluation and program performance data,
     member information and personnel records for 3 years from the date of the
     submission of the final Financial Status Report (SF 269A). If an audit is started
     prior to the expiration of the 3-year period, the records must be retained until the
     audit findings involving the records have been resolved and final action taken.

AmeriCorps Provisions, (2001 ed.) A. Definitions, Number 9 – Member states:
     Member means an individual: … b. Who is a U.S. Citizen, U.S. national or lawful
     permanent resident alien of the United States…

AmeriCorps Provisions, (2001 ed.) B. Special Provisions, Number 14 – Member Records and
Confidentiality states:
       a. Record-Keeping. The Grantee must maintain verifiable records which
      document each member’s eligibility to serve based upon citizenship or lawful
      permanent residency, birth date, level of education attainment, date of high school
      diploma or equivalent certificate (if attained), participation start date and end date,
      hours of service per week, location of service activities and project assignment.

AmeriCorps Provisions, (2001 ed.) C. General Provisions, Number 21c – Financial Management
Provisions:
      ii. AmeriCorps Members. The Grantee must keep time and attendance records on
      all AmeriCorps members in order to document their eligibility for in-service and
      post-service benefits. Time and attendance records must be signed both by the
      member and by an individual with oversight responsibilities for the member.

AmeriCorps Provisions, (2001 ed.) B. Special Provisions, Number 14 – Member Records and
Confidentiality:
      a. Record-Keeping. The Grantee must maintain records specified in (b) below that
      document each member’s eligibility to serve pursuant to the member eligibility
      requirements in the definition section (clause A9) of these provisions. The records
      must be sufficient to establish that the individual was eligible to participate in the
      Program and that the member successfully completed the Program requirements.

AmeriCorps Provisions, (2001 ed.) B. Special Provisions, Number 13 – Matching Requirements:
     b. Cash Match for Member Support Costs. The Grantee’s matching contributions
     for Member Support Costs (excluding health care) must be in non-federal monies,
     unless otherwise authorized in accordance with AmeriCorps Special Provisions.



                                             56
AmeriCorps Provisions, (2001 ed.) B. Special Provisions, Number 11 – Living Allowance, Other
In-Service Benefits and Taxes:
       The living allowance match must come from non-federal sources, unless an
       exception for lack of available financial resources at the local level under 42 U.S.C
       12594(g) is specifically approved in Section VII. Special Conditions of the Award
       document.

YouthBuild did not ensure that its subgrantees understood the AmeriCorps Provisions regarding
the use of non-Federal funds for match costs. In addition, the subgrantees did not have an
adequate system of retaining records to support the match costs. As a result, funds used as match
costs have been questioned as unallowable and not in compliance with AmeriCorps Provisions.

This finding is also considered to be an internal control weakness.

Recommendation
We recommend that the Corporation determine the allowability of the costs questioned and
calculate the effect of the disallowed costs on the reimbursed Federal share.

In addition, because subgrantee staff is not fully aware of the AmeriCorps Provisions with
respect to the requirements for match costs, we recommend that the Corporation instruct
YouthBuild to train and monitor subgrantees to ensure claimed match costs are adequately
documented and allocable in accordance with AmeriCorps Provisions.

YouthBuild’s Response
YouthBuild USA has also implemented a new system of monitoring the source of the
subgrantee’s match. At the beginning of each grant year, the subgrantee provides YouthBuild
USA with the following information: Source of Support, Value, Type (Federal, State, Local, or
Private), Use/Purpose (Member Costs or Program Operating Costs) and Documentation of
Support. YouthBuild USA reviews this information to ensure that the subgrantees are in
compliance.

YouthBuild USA is able to determine the methodology of claiming match. We provided
documentation of our match to the auditors, but they declined to review it as they would not
accept any methodology that did not involve having a segment of accounting code used for
match purpose. We have now determined a method of calculating match which we intend to
utilize consistently for the future.

The questioned member match costs for YouthBuild Philadelphia, YouthBuild St. Louis, and
YouthBuild York (grant year 2002-2003) constitute more than 25 percent of the total questioned
match costs. These programs did not use Corporation for National and Community Service
funds to pay living allowances to their members and thus were not required to provide any
match.

The inclusion of HUD expenditures as match for member allowances by these three



                                                57
organizations prior to 2004 has no material impact: they paid 100 percent of their member
allowances with HUD funds rather than CNCS funds and thus were not required to match.

Auditor’s Comment
We recognize and concur with the changes implemented by YouthBuild to monitor the source
and documentation support for subgrantee match.

We disagree with YouthBuild’s response that we declined to review their methodology of
tracking match costs. In fact, we made many attempts to work with YouthBuild to review the
documentation supporting the claimed match costs. YouthBuild’s methodology of tracking
match costs is to record expenditures into funds based on the funding sources. As such, the fund
may contain expenditures that benefited several different programs, including AmeriCorps.
However, there were no accounting codes or other tracking methods to isolate costs related to the
AmeriCorps program. In addition, YouthBuild was unable to reconcile or recalculate the match
costs claimed from their accounting records. Through the reconstructed records, we were only
able to substantiate, with documentation, part of the match costs claimed. As a result, the finding
and questioned costs remain unchanged.

We also disagree with YouthBuild’s response that members’ living allowances were not paid
with AmeriCorps funds. Copies of submitted Financial Status Reports were obtained from each
subgrantee and reconciled to the amounts claimed by YouthBuild. On each FSR, the line item
indicating the Federal portion of living allowances contained an amount. We also disagree with
YouthBuild’s characterization of questioned match costs not having a material impact. The
findings and questioned costs were based on an audit of match costs claimed. As a result, the
finding and questioned costs remain unchanged.




                                                58
Finding No. 5: – Inadequate Controls Over Tracking and Reviewing Match Costs Prior to
the Compilation of the Aggregate FSR.

YouthBuild prepares the aggregate FSR, which reports the aggregate match costs claimed for the
AmeriCorps program. Total match costs are comprised of costs claimed by YouthBuild and the
subgrantees.

YouthBuild Match Costs
YouthBuild’s financial management system is not adequate to provide a clear audit trail for the
match costs claimed on the aggregate FSR. (Also see Schedule A-1, Note 4)

Subgrantee Match Costs
YouthBuild requires its subgrantees to submit supporting documentation for the expenditures
claimed under the Corporation share with their monthly Financial Status Reports. The
documentation is reviewed by YouthBuild personnel prior to reimbursing the subgrantee for the
incurred costs. However, this practice does not apply to the reported match costs. Match costs
reported on the subgrantee's monthly FSR are added up and then reported on the aggregate FSR.
YouthBuild does not have procedures in place to review the match costs reported by the
subgrantees to ensure that the amounts reported are accurate, allowable, and allocable as match
costs per AmeriCorps Provisions. In addition, the audit noted match member support costs were
funded with HUD funds.

AmeriCorps Provisions, (2001 ed.) C. General Provisions, Number 21 – Financial Management
Provisions:
      a. General. The Grantee must maintain financial management systems that include
      standard accounting practices, sufficient internal controls, a clear audit trail and
      written cost allocation procedures as necessary. Financial management systems
      must be capable of distinguishing expenditures attributable to this Grant from
      expenditures not attributable to this Grant. This system must be able to identify
      costs by programmatic year and by budget category and to differentiate between
      direct and indirect costs or administrative costs…

      b. Source documentation. The Grantee must maintain adequate supporting
      documents for its expenditures (federal and non-federal) and in-kind contributions
      made under this Grant. Costs must be shown in books or records [e.g., a
      disbursement ledger or journal], and must be supported by a source document, such
      as a receipt, travel voucher, invoice, bill, in-kind voucher, or similar document.

AmeriCorps Provisions, (2001 ed.) B. Special Provisions, Number 13 – Matching Requirements:
     b. Cash Match for Member Support Costs. The Grantee’s matching contributions
     for Member Support Costs (excluding health care) must be in non-federal monies,
     unless otherwise authorized in accordance with AmeriCorps Provision 11, Living
     Allowance.

      c. Cash or In-Kind Match for Program Operating Costs. Contributions, including



                                              59
      cash and third party in-kind, will be accepted as part of the Grantee’s matching
      share for Program Operating Costs (defined as those other than the Member
      Support Costs) when such contributions meet all of the following criteria: i. They
      are verifiable from Grantee records; ii. They are not included as contributions for
      any other federally-assisted Program; iii. They are necessary and reasonable for the
      proper and efficient accomplishment of Program objectives; and iv. They are
      allowable under applicable cost principles.

AmeriCorps Provisions, (2001 ed.) B. Special Provisions, Number 11 – Living Allowance, Other
In-Service Benefits and Taxes:
       The living allowance match must come from non-federal sources, unless an
       exception for lack of available financial resources at the local level under 42 U.S.C
       12594(g) is specifically approved in Section VII. Special Conditions of the Award
       document.

The inadequate financial management system and lack of controls to review subgrantees’
matching costs limits YouthBuild’s ability to ensure claimed match costs are in compliance with
AmeriCorps provisions. As a result, some of the match costs claimed have been determined to
be unallowable and unallocable to the AmeriCorps program (Compliance Finding #4).

This is also considered to be an internal control weakness.

Recommendation
We recommend the Corporation instruct YouthBuild to develop and implement written policies
and procedures to ensure:
   1) Costs claimed as match are properly recorded in the financial management system, so
       that costs claimed can be specifically identified in the accounting records.
   2) Prior to the compilation of the aggregate FSR, subgrantee-claimed match costs are
       reviewed to determine if costs are allowable and allocable per the AmeriCorps
       Provisions.

YouthBuild’s Response
YouthBuild will develop and implement written policies and procedures to ensure that costs
claimed can be specifically identified in the accounting records. We have determined a method
of calculating match which we intend to utilize consistently in the future.

Auditor’s Comment
We recognize and concur with the changes implemented by YouthBuild to ensure costs claimed
are identifiable in the accounting records.




                                                60
Finding No. 6: – Errors on Aggregate FSR Not Identified and Corrected in a Timely
Manner

During our audit, we reconciled the amount of total expenditures reported on the final FSR dated
April 28, 2004 for Grant Award #00ADNMA061 to the cumulative payment report from the
Corporation and YouthBuild’s general ledger. From our reconciliation, we noted that the
amount of total expenditures on the final FSR was overstated by $285,082. However, the
amount drawn down from the Payment Management System matched YouthBuild’s general
ledger. As a result, YouthBuild revised all semi-annual and the final FSRs originally submitted
to the Corporation on June 9, 2005. YouthBuild’s internal controls were not adequate to identify
and correct accounting errors noted in the accounting records in a timely manner.

AmeriCorps Provisions, (2001 ed.) C. General Provisions, Number 21 – Financial Management
Provisions:

      a. General. The Grantee must maintain financial management systems that include
      standard accounting practices, sufficient internal controls, a clear audit trail and
      written cost allocation procedures as necessary. Financial management systems
      must be capable of distinguishing expenditures attributable to this Grant from
      expenditures not attributable to this Grant. This system must be able to identify
      costs by programmatic year and by budget category and to differentiate between
      direct and indirect costs or administrative costs…

      b. Source documentation. The Grantee must maintain adequate supporting
      documents for its expenditures (federal and non-federal) and in-kind contributions
      made under this Grant. Costs must be shown in books or records [e.g., a
      disbursement ledger or journal], and must be supported by a source document, such
      as a receipt, travel voucher, invoice, bill, in-kind voucher, or similar document.

YouthBuild lacked policies and procedures to ensure changes in expenditures were reported on
FSRs in a timely manner. As a result, financial data reported to the Corporation was inaccurate
and prevented both the Corporation and YouthBuild from properly monitoring expenditures
charged to the AmeriCorps program.

This is also considered to be an internal control weakness.

Recommendation
We recommend the Corporation instruct YouthBuild to review their internal control policies and
procedures and revise, if necessary, controls to ensure costs claimed on the aggregate FSR are
complete and in agreement with the accounting records.

YouthBuild’s Response
We have made changes to our internal records over the FSR and Federal Cash Transaction
Report process. We have modified our general ledger-based internal reports so that they include
a subgrantee payment section. We will reconcile these reports (upon which the FSR will be



                                                61
based) to the general ledger before preparing the aggregate FSR. If the circumstance arises of a
late or changed FSR from a subgrantee, we will, with the permission of the Corporation, submit
a revised FSR for that period as soon as possible rather than attempting to address the situation
with the next FSR. Prior to issuing the final FSR, we will ensure that it ties out to the final
Federal Cash Transaction Report for the grant. In addition, the Controller has expanded her
review to ensure that both parent and subgrantee expenditures tie to the FSR as well as reviewing
the Federal Cash Transaction Report.

Auditor’s Comment
We recognize and concur with the changes implemented by YouthBuild to ensure costs per the
accounting records are properly reflected on the FSR and Federal Cash Transaction Report.




                                               62
Finding No. 7: – Inadequate Controls to Monitor Subgrantee Activities for Education
Award Program

YouthBuild has developed policies and procedures to conduct site visits and monitor each
subgrantee operating the Education Award Program at least once a year. We noted from site
visit schedules that not every subgrantee was monitored at least once a year. In program year
2003-2004, no site visits were performed. We also noted that YouthBuild did not maintain a log
to record all deficiencies identified from the site visits. There was also no documentation of any
follow-up actions for deficiencies that were noted.

AmeriCorps Provisions, (2001 ed.) C. General Provisions, Number 21 – Financial Management
Provisions:

      d. Audits… A recipient of a Federal grant (pass-through entity) is required in
      accordance with paragraph 400(d) of OMB Circular A-133 to do the following
      with regard to its subrecipients: … (2) advise subrecipients of all requirements
      imposed on them; (3) monitor subrecipient activities and compliance.

AmeriCorps Provisions, (2001 ed.) C. General Provisions, Number 20 – Responsibilities Under
Grant Administration:
      a. Accountability of the Grantee. The Grantee has full fiscal and programmatic
      responsibility for managing all aspects of grant and grant-supported activities,
      subject to the oversight of the Corporation. The Grantee is accountable to the
      Corporation for its operation of the AmeriCorps Program and the use of
      Corporation grant funds. It must expend grant funds in a judicious and reasonable
      manner.

OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements with
Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations, Subpart C – Post
Award Requirements, _.51 Monitoring and reporting program performance:
        (a) Recipients are responsible for managing and monitoring each project, program,
        subaward, function or activity supported by the award.

Without proper policies and procedures to monitor all subgrantee activities, YouthBuild may be
unable to provide assurance that all subgrantee activities are in compliance with AmeriCorps
Provisions.

This is also considered an internal control weakness.

Recommendation
We recommend the Corporation instruct YouthBuild to:
   1) Comply with its policies and procedures and conduct site visits for each subgrantee at
      least once a year;
   2) Develop and implement written policies and procedures to maintain a log of all site visits
      performed and any deficiencies noted; and



                                               63
   3) Develop and implement written policies and procedures to ensure follow-up actions are
      performed for deficiencies noted during site visits.

YouthBuild’s Response
This finding is based on an inaccurate portrayal of YouthBuild USA’s policies and procedures
related to site visits to Education Award Programs. YouthBuild USA did not commit to the
Corporation in any of our Education Award grant proposals that YouthBuild USA would make a
site visit to each Education Award Program. The auditors erroneously assumed that our
Education Award Program policies and procedures are the same as our National Direct policies
and procedures.

Nonetheless, YouthBuild USA has implemented a new system of Education Award Program
monitoring. There is now a staff person focused solely on the Education Award Program, with
the goal of making site visits to as many programs as possible.

Auditor’s Comment
We disagree with YouthBuild’s characterization of this finding. Our finding was based on
interviews conducted with the AmeriCorps National Direct Program Director and AmeriCorps
Education Award Program Director. Each of them indicated that it was YouthBuild’s policy to
perform site visits of each subgrantee. Nonetheless, we recognize and concur with the changes
implemented by YouthBuild to monitor education award subgrantees. However, we recommend
that the new monitoring system be documented with written policies and procedures.




                                             64
Finding No. 8: – Duties Not Adequately Segregated to Ensure Safeguarding of AmeriCorps
Funds

YouthBuild did not ensure that all subgrantees had adequate segregation of duties.            At
YouthBuild Philadelphia, we found that the Fiscal Manager performs the following duties:

      Receipts
         • Reviews cash receipts after the receptionist opens the mail and records the amount
             in a log;
         • Records cash receipts in the general ledgers;
         • Prepares deposits;
         • Takes deposits to the bank;
         • Prepares bank reconciliations.

      Non-Payroll Disbursements
         • Prepares disbursements;
         • Records disbursements transactions in the general ledger;
         • Has access to blank checks;
         • Has access to checks after being printed;
         • Has access to checks after being signed.

      Payroll Disbursements
         • Prepares payroll disbursement information without supervisor review and
             approval;
         • Records payroll transactions in the general ledger;
         • Has the ability to change salary amounts; and
         • Has access to signed payroll checks.

OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements with
Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations, Subpart C – Post
Award Requirements, _.21 Standards for Financial Management Systems:
        (b) (3) Effective control over and accountability for all funds, property and other
        assets. Recipients shall adequately safeguard all such assets and assure they are
        used solely for authorized purposes.

Failure to segregate disbursement and receipt functions limits the subgrantee’s ability to ensure
AmeriCorps funds are properly safeguarded. Effective internal controls would segregate the
functions to prevent the possibility of misappropriated AmeriCorps funds.

This is also considered an internal control weakness.

Recommendation
We recommend the Corporation instruct YouthBuild to review and modify, if necessary, controls
implemented by subgrantees to ensure adequate segregation of duties for the safeguarding of
AmeriCorps funds.


                                               65
YouthBuild’s Response
YouthBuild Philadelphia is currently updating the agency’s Fiscal Manual to document all
policies and procedures applicable to the Fiscal Department. Its policies will be updated to
ensure effective control over accountability for all funds, property and other assets. The Fiscal
Department at YouthBuild Philadelphia is committed to providing adequate internal control over
the agency’s assets. By segregating the receipt functions and disbursement functions and
providing adequate independent reviews of the activities of the Fiscal Department, YB
Philadelphia has now provided necessary internal control mechanisms to safeguard the agency’s
funding and assets.

Auditor’s Comment
We recognize and concur with the changes implemented by YouthBuild to segregate accounting
duties at the subgrantee location.




                                               66
Finding No. 9: – Late Submission of Required AmeriCorps Documents

YouthBuild did not ensure that subgrantees submitted required reports in a timely manner. We
found numerous instances where subgrantees were not submitting required AmeriCorps
documents within the established time frame. Among the late reports were Financial Status and
Progress Reports, Member Enrollment Forms, Member Status Change Forms, and Member Exit
Forms. In addition, 15 progress reports were not made available for our review. The following
summarizes the instances of late submissions noted during the audit.
                                                                              Late
                                                                           Enrollment,
                                Total               Late     Unavailable    Change,
                               Members     Late   Progress    Progress     and/or Exit
          Subgrantee           Enrolled    FSR    Reports     Reports        Forms
     YouthBuild                    -        3        3           -              -
     YouthBuild Los Angeles       86         4       -           6             67
     YouthBuild Philadelphia     646        21       5           -            139
     YouthBuild St. Louis        176        1        3           -            127
     YouthBuild Portland         184         5       2           3            155
     YouthBuild Portland DD       62         6       2           -             52
     YouthBuild York             237        24       -           6            187

AmeriCorps Provisions (2001 ed.), B. Special Provisions, Number 16 Reporting Requirements,
states:
    a. Financial Status and Progress Reports. . . . Grantees are required to review, analyze,
    and follow up on progress reports it receives from AmeriCorps subgrantees or operating
    sites… The Corporation expects each Grantee to set its own Subgrantee reporting
    requirements. Grantees are responsible for monitoring Subgrantee activities and training
    needs, tracking progress toward objectives, and identifying challenges. Subgrantees must
    adhere to the reporting requirements outlined and communicated by its Grantees for the
    program year.

       *      *       *

       i. Financial Status Reports. Financial Status Reports will be due April 30 for the
       period ending March 31 and October 31 for the period ending September 30.

       *      *       *

       ii. Progress Reports.

              (b) Reporting Dates for State Commissions, Tribes, and Territories: A
              Grantee Progress Report (“GPR”) is due in WBRS on November 30, 2002,
              for the period October 1, 2001, through September 30, 2002.

   b. AmeriCorps Member-Related Forms. The Grantee is required to submit the following
   documents to the National Service Trust at the Corporation on forms provided by the



                                             67
   Corporation. Grantees and subgrantees may use WBRS to submit these forms
   electronically. Programs using WBRS must also maintain hard copies of the forms:

       i. Enrollment Forms. Enrollment forms must be submitted no later than 30 days
       after a member is enrolled.

       ii. Change of Status Forms. Member Change of Status Forms must be submitted
       no later than 30 days after a member’s status is changed…

iii. Exit/End-of-Term-of-Service Forms. Exit/End-of-Term-of-Service Forms must be submitted
no later than 30 days after a member exits the program or finishes his/her term of service.

YouthBuild did not ensure that its subgrantees are fully aware of AmeriCorps Provisions
requiring the timely submission of certain documents. By not submitting the documents within
the established time frame, YouthBuild cannot properly review, track, and monitor the
subgrantee’s activities and objectives of the AmeriCorps program. In addition, YouthBuild’s
reports to the Corporation may not contain accurate data which, in turn, may limit the
Corporation’s ability to properly monitor AmeriCorps activities and adjust its member counts.


Recommendation
We recommend that the Corporation instruct YouthBuild to train and monitor subgrantees as
necessary to ensure all required documents are submitted in a timely manner.


YouthBuild’s Response
YouthBuild USA has instituted a higher level of oversight to train and monitor subgrantees’
submission of required documents in a timely manner. Timely submission of required forms was
reviewed several times during our annual training with subgrantees. YouthBuild is closely
monitoring subgrantees’ submission of enrollment, change of status, and exit forms in WBRS.
All subgrantees submitted a “Start Date Form” at the beginning of the grant year, indicating the
members’ anticipated start date and end date. A portion of our first bi-monthly individual site
conference call with each National Direct subgrantee was then dedicated to reminding them of
the 30-day submission requirement for these forms and setting up procedures to track the timely
submission of the forms. Education Award Programs now send enrollment forms to YouthBuild
USA and the staff person dedicated to the Education Award Program enters the information into
WBRS, ensuring that it is entered within the 30-day timeframe.


Auditor’s Comment
We recognize and concur with the changes implemented by YouthBuild to train and monitor
subgrantees to submit all required documents in a timely manner.




                                              68
Finding No. 10: – Minimum Match Requirements Not Met
Based on our reviews, all match member support costs for YouthBuild Los Angeles and
YouthBuild Philadelphia have been questioned. (See Finding No. 4) As a result, both of the
subgrantees did not meet the required 15 percent minimum match member support costs. This is
mainly due to the fact that the subgrantees were using funds from a Federal source, U.S.
Department of Housing and Urban Development, to fund match member support costs.

AmeriCorps Provisions (2001 ed.), B. Special Provisions, Number 13 Matching Requirements,
states:
    a. Matching Obligation. The Corporation requires, at a minimum, the following aggregate
    matches: i. Member Support Costs of 15 percent including living allowance, FICA,
    unemployment insurance, worker’s compensation and health care.

YouthBuild did not ensure that its subgrantees understood the AmeriCorps Provision preventing
the use of other Federal funds as match cost for the AmeriCorps program. Failure to provide
match member support costs limits YouthBuild’s and the subgrantee’s ability to comply with
AmeriCorps Provisions.


Recommendation
We recommend that the Corporation instruct YouthBuild to train and monitor subgrantees to
ensure claimed match costs are funded from a non-Federal source and that the minimum match
requirement is met. We also recommend that the Corporation recoup excess Federal share,
including administrative costs, for subgrantee match shortfall.


YouthBuild’s Response
YouthBuild USA has implemented a new system of monitoring the source of the subgrantees
match. At the beginning of each grant year, the subgrantee provides YouthBuild USA with the
following information: Source of Support, Value, Type (Federal, State, Local, or Private),
Use/Purpose (Member Costs or Program Operating Costs) and Documentation of Support.
YouthBuild USA reviews this information to ensure that the subgrantees are in compliance.
Also, YouthBuild USA’s AmeriCorps Financial Manager monitors the match on a semi-annual
basis to ensure that the subgrantee is meeting the minimum match requirements.


Auditor’s Comment
We recognize and concur with the changes implemented by YouthBuild to monitor subgrantees’
match costs and their ability to meet the minimum match requirement.




                                             69
Finding No. 11: – Administrative Cost Percentage Exceeded Maximum Allowable
Based on our reviews, costs claimed as Corporation share have been questioned. As a result, we
have recalculated administrative costs claimed by the subgrantees and noted that the two
subgrantees had exceeded the five percent administrative cost limitation established by the
AmeriCorps Provisions. Our recalculation noted the following:
                                                                     Claimed        Calculated
                            Costs   Questioned        Revised     Administrative     Admin.
                           Claimed     Costs            Costs         Costs         Percentage
YouthBuild Los Angeles    $ 318,727 ($ 63,857)       $ 254,870      $ 14,475          5.68
YouthBuild Philadelphia     633,348 ( 52,960)          580,388        32,318          5.57

AmeriCorps Provisions (2001 ed.), B. Special Provisions, Number 22 Administrative Costs,
states:
    b. Limitation by Statute. Administrative costs cannot exceed 5 percent of total
    Corporation funds actually expended under this award.

   c. Fixed 5 percent. If approved on a case-by-case basis by the Corporation, the grantee may
   charge, for administrative costs, a fixed 5 percent of the total of the Corporation funds
   expended. In order to charge this fixed 5 percent, the grantee match for administrative costs
   may not exceed 10 percent of all direct cost expenditures. These rates may be used without
   supporting documentation and are in lieu of an indirect cost rate.

Corporation funds have been used to pay for administrative costs that exceed the limitation
established by AmeriCorps Provisions.

Recommendation
We recommend that the Corporation determine the allowability of the costs questioned and
calculate the effect of the disallowed costs on the reimbursed Federal share.


YouthBuild’s Response
We disagree with the audit findings that YouthBuild Los Angeles and YouthBuild Philadelphia
exceeded the maximum allowable Administrative Costs. The programs met this requirement
prior to direct costs being disallowed. Once the questioned costs were deducted from the grant
amount, the maximum allowable Administrative were not in compliance. However, at the time
of submission the administration costs were in compliance with the requirements.

Auditor’s Comment
Prior to questioning direct costs, only YouthBuild Los Angeles was claiming administrative
costs within the maximum allowable. Based on submitted FSRs, YouthBuild Philadelphia had
already exceeded the maximum five percent. Until the questioned direct costs are resolved with
the Corporation, this finding will remain unchanged.




                                              70
Finding No. 12: – Living Allowances Not Paid on an Incremental Basis

YouthBuild did not ensure that all subgrantees were paying living allowances to AmeriCorps
members on an incremental basis. Living allowances were paid like an hourly wage, as time
sheets were maintained by each member to document the hours served. YouthBuild Los
Angeles, YouthBuild St. Louis, and YouthBuild York all required their members to complete
and sign time sheets prior to being paid for that pay period.

AmeriCorps Provisions (2001 ed.), B. Special Provisions, Number 11 Living Allowances, Other
In-Service Benefits And Taxes, states:
    b. Living Allowance Distribution. The living allowance is designed to help members
    meet the necessary living expenses incurred while participating in the AmeriCorps
    Program. It is not a wage and should not fluctuate based on the number of hours served
    in a given time period. Programs should pay the living allowances in increments, such as
    weekly or bi-weekly.

YouthBuild subgrantees did not fully understand the AmeriCorps Provisions relating to paying
living allowances to members. Not paying living allowances in increments does not comply
with AmeriCorps provisions.

Recommendation
We recommend that the Corporation instruct YouthBuild to train and monitor subgrantees and
provide training to subgrantees as necessary to ensure that living allowances are paid on an
incremental basis, in accordance with AmeriCorps Provisions, and not on an hourly basis.

YouthBuild’s Response
YouthBuild USA has a full-time AmeriCorps Financial Manager, who has been an employee for
the past two years, and who reviews all the AmeriCorps subgrantees’ financial information. This
person reviews the subgrantees’ Financial Status Report as well as backup documentation
(member timesheets and member payroll) in detail ensuring that the member’s living allowance
does not fluctuate and is not being paid on an hourly basis.

Auditor’s Comment
We recognize and concur with the changes implemented by YouthBuild to ensure subgrantees
are not paying member living allowances on an hourly basis.




                                              71
Finding No. 13: – Aggregate Training Hours Exceeded AmeriCorps Limit

YouthBuild did not ensure that all subgrantees complied with the 20 percent limit established by
AmeriCorps Provisions. The following summarizes our findings:

                                                                  Calculated           Excess
                                     Training       Base        Training Hours        Training
            Subgrantee                Hours         Hours       Percentage (A)       Percentage
      YouthBuild Portland             27,874       105,300           26.47              6.47
      YouthBuild Portland DD          11,855        55,800           21.25              1.25
      YouthBuild York                 53,198       165,200           32.20             12.20
       (A) – Percentage based on total hours reported on WBRS divided by the base hours.
       Base hours are determined by taking the aggregate member type multiplied by the contracted hours.
       Example – 5 full-time members and 5 half-time members: [(5 x 1,700)+(5 x 900)] = 13,000 base hours

AmeriCorps Provisions (2001 ed.), B. Special Provisions, Number 7 Training, Supervision, And
Support, states:
   e. Limit on Education and Training Activities. No more than 20 percent of the aggregate
   of all AmeriCorps member service hours in a Program may be spent in education,
   training, or other non-direct activities.

YouthBuild did not have policies or procedures in place to properly monitor and control training
hour limits. Exceeding the training limit results in less direct service hours spent in the program.

Recommendation
We recommend that the Corporation instruct YouthBuild to train and monitor subgrantees as
necessary to ensure aggregate training hours for members are within the 20 percent limitation
established by AmeriCorps Provisions.

YouthBuild’s Response
YouthBuild USA has understood that the 20 percent limitation on training applied to the
aggregate of all of the YouthBuild AmeriCorps subgrantees and not to individual subgrantees.
Based on AmeriCorps definitions and given that subgrantee is not specifically named in
Provision 7E (Limit on Education and Training Activities), YouthBuild USA interprets the
Provisions to mean that the 20 percent training limitation is taken over the aggregate of all our
YouthBuild AmeriCorps programs and not based on individual subgrantees. YouthBuild USA
has requested guidance on this issue from the Corporation for National and Community Service.

Auditor’s Comment
Our scope and methodology were based on the Corporation’s interpretation of the rules and
guidance from the Office of Inspector General. That interpretation was to review aggregate
training hours and apply the 20 percent limitation at the subgrantee level. Since the issue is
subject to interpretation, we recommend YouthBuild work with the Corporation to fully
understand the intentions of the education and training provision.




                                                  72
Internal Controls Over Financial Reporting

In planning and performing our audit of award costs as presented in Exhibits A and B for the
period July 1, 2000, to March 31, 2005, we considered YouthBuild's internal controls over
financial reporting in order to determine our auditing procedures for the purpose of expressing
our opinion on the financial schedules and not to provide an opinion on the internal controls over
financial reporting. However, we noted certain matters involving the internal control over
financial reporting and its operation that we consider to be reportable conditions. Reportable
conditions involve matters coming to our attention relating to significant deficiencies in the
design or operation of the internal control over financial reporting that, in our judgment, could
adversely affect YouthBuild's ability to record, process, summarize and report financial data
consistent with the assertions of management in the financial statements. Compliance findings
numbered 1 through 8, as set forth in the Compliance Section of this report, are also considered
to be internal control reportable conditions.

A material weakness is a reportable condition in which the design or operation of one or more of
the internal control components does not reduce, to a relatively low level, the risk that
misstatements caused by error or fraud in amounts that would be material in relation to the
financial schedules being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. Our consideration of the
internal control over financial reporting would not necessarily disclose all matters in the internal
controls that might be reportable conditions and, accordingly, would not necessarily disclose all
reportable conditions that are considered to be material weaknesses. However, we believe all of
the reportable conditions identified above represent material weaknesses.




Conrad and Associates, L.L.P.
Irvine, California
August 26, 2005




                                               70
                                               73
      Appendix A



YouthBuild USA’s Response
                                       58 Day Street, 3rd Floor • P.O. Box 440322 •
                                                Somerville, MA • 02144
                                   Tel. (617) 623-9900 • Fax. (617) 623-4331
                                              www.youthbuild.org




January 11, 2006

Ms. Carol Bates
Inspector General
Office of Inspector General
Corporation for National and Community Service
1201 New York Avenue, NW
Washington, DC 20525

Dear Ms. Bates:

Thank you for the opportunity to respond to the audit report dated December 6, 2005.

YouthBuild USA has enjoyed more than a decade of partnership with the Corporation for
National and Community Service in providing community service opportunities to low-income
young people who build low-income housing and refurbish computers while transforming their
lives. We are proud to have been chosen to work in these communities and likewise proud of
our staff and members for making a difference in their lives, their families’ lives, and their
communities through their service to America.

The YouthBuild programs that are AmeriCorps subgrantees are primarily community- and faith-
based, grassroots organizations. They are deeply grounded in the low-income communities they
serve. They often have limited resources with which to provide excellent service. Building
their capacity to manage complex financial and managerial tasks is part of our goal and
responsibility.

We have over the years worked to do this, with progressively better results. The record of the
audit shows no questioned costs or match and fewer questioned Education Awards at the sub-
grantee level in the most recent period audited (2004-05). Nonetheless, the experience of the
Inspector General’s audit brought to our attention particular areas in which we must be
extremely diligent in maintaining the compliance of our sub-grantees, especially in relation to
ensuring that they have obtained and preserved all items related to documentation of eligibility
for every Education Award granted. We will do so, seeking to reach the point where there would
be virtually no questioned Education Awards, in addition to no questioned costs and match.
We are concerned that the audit misrepresents the over-all picture in certain ways that we would
like to see corrected, to show the following:

   •   YouthBuild USA had no questioned costs at the level of the parent organization.
       The audit indicates that YouthBuild USA has unsupported or inadequately documented
       direct costs in its expenditures at the level of the parent organization. This is not true.
       The auditors have reflected the questioned costs from two subgrantees, YouthBuild
       Atlantic City and YouthBuild Columbia Heights, as YouthBuild USA costs in the audit
       findings report. These subgrantees are separate 501(c) 3 organizations and should
       therefore be treated as all other subgrantees have been in the report.

   •   Less than 1% of total grant costs would be questioned if the auditors had not
       included a sub-grantee that closed four years ago. The auditor counted as questioned
       costs the entire grant ($135,388) made to one sub-grantee (YouthBuild Atlantic City) that
       was funded more than five years ago, closed four years ago, and for which no records
       were available. YouthBuild Atlantic City was a separate 501(c) 3 organization. If this is
       omitted the questioned grant costs would become $131,562, the details of which we
       discuss below as allowable expenses.

   •   Questioned match costs were primarily in match that exceeded the required match.
       In the executive summary the auditor shows $6,254,305 in questioned match and then
       states that “Some of the questioned match is claimed in excess of the minimum match
       required.” In fact, of the $6,254,305 in questioned match costs, $5,906,451 is match that
       was provided by YouthBuild USA and its subgrantees above the required minimum
       match. Therefore we would like the record to show in the OIG’s executive summary as
       well as the body of the report that the level of required match costs that were
       questioned is $347,854, not $6,254,305.

   •   Clear Improvement over time: The audit revealed improvement in all aspects of
       management where it was needed: direct cost management and member documentation at
       the sub-grantee level; and match documentation and tracking. There were no questioned
       grant or match costs for YouthBuild USA and its subgrantees for the 2004-05 National
       Direct AmeriCorps grant. In addition, 99% of the questioned Education Awards were in
       the first three years audited. This reflects management improvements already made. We
       would like the record to note improvement over time.

Following are responses to each finding in detail.
Compliance Finding #1: Unallowable Living Allowances and Member Files Lacking
Documentation to Support Proper Enrollment and Participation in AmeriCorps.

Auditors’ Recommendation:
We recommend that the Corporation determine the allowability of the costs questioned and
recoup costs from subgrantees that are not allowable and allocable to the grants, including
administrative costs applied to the questioned costs.

In addition, because the subgrantees’ staff was not fully aware of AmeriCorps Provisions with
respect to living allowances, we recommend that the Corporation instruct YouthBuild to develop
training programs and monitor subgrantees to ensure the following:
        1. Living allowances are only paid to eligible members;
        2. Documentation of the members’ citizenship status is maintained in the files;
        3. The Corporation’s share of living allowance is within the 85 percent limitation;
                and
        4. Financial records are adequately maintained to support the amounts claimed.

YouthBuild USA Response:
YouthBuild USA is aware of the AmeriCorps Provisions, and YouthBuild USA systematically
trains and monitors its subgrantees to ensure that they are also aware of and familiar with the
AmeriCorps Provisions. Each year of the audited grants, YouthBuild USA has provided an
annual training for our subgrantees that included a detailed assessment and review of the updated
Provisions and a review of previous Provisions. The agendas for these conferences and attendee
lists, which demonstrate YouthBuild USA's thorough training of subgrantees, were provided to
the auditors. Additional training and updates were provided via email communication with
subgrantees. Our annual training was modified this year to further improve the preparation that
subgrantees receive. In addition to reviewing the AmeriCorps Provisions, we presented the key
audit findings and strategies to ensure compliance moving forward. YouthBuild USA provided a
CD to all conference attendees containing AmeriCorps documents and templates of required
forms. This CD included an entire folder dedicated to sample forms for member files, and an
exhaustive member file checklist to assist subgrantees in monitoring their own compliance with
required forms. We provided all of the conference presentations and hand-outs on a follow-up
CD that was sent to attendees within two weeks of the conference.

In addition to the annual conference, YouthBuild USA monitors and trains sites through bi-
monthly individual site and group conference calls. These calls provide an additional check-in
point for subgrantees to ask questions and for YouthBuild USA to provide updates, reminders,
and clarification. YouthBuild USA has also implemented a desktop monitoring tool which
includes reviews of required documents from member files and member timesheets among other
things. This tool further allows us to monitor subgrantees' compliance with the AmeriCorps
Provisions. Further, YouthBuild USA now has a full-time AmeriCorps Financial Manager who
has been an employee with us for the past two years and reviews all AmeriCorps information.
Her consistency and accuracy have resulted in no questioned costs for this finding in the most
recent grant year.
Two of the subgrantees who had questioned costs related to this finding also experienced
challenges that directly impacted their consistency in maintaining member documentation.
YouthBuild Los Angeles moved their offices twice in two years, and member files were moved
five times in one year. In addition, both YouthBuild Los Angeles and YouthBuild York
experienced significant staff turnover during the time in question. The moves and the staff
turnover resulted in the loss of essential AmeriCorps information. These two subgrantees
comprise 80 percent of the total questioned costs related to this finding.

To address these issues in future situations, YouthBuild USA has initiated a protocol to help
subgrantees manage staff transitions and to train new staff. When YouthBuild USA learns about
a staff transition, we hold a conference call with the site to introduce ourselves to the new staff
member, to provide appropriate training for the new staff person based on her or his role in the
subgrantee's organization, and to answer questions. YouthBuild USA has also established a
document maintenance and storage policy for both YouthBuild USA and our subgrantees. In
addition, the document maintenance and storage requirements are included in the subgrantee
contract. In this contract, subgrantees agree to "retain and make available all financial reports,
supporting documentation, statistical records, evaluation and program performance data, member
information and personnel records for three years from the date of the submission of the final
FSR by YouthBuild USA."

Compliance Finding #2: Questioned Education Awards

Auditors’ Recommendation:
We recommend that the Corporation determine the allowability of the questioned education
awards and recoup costs and applicable administrative costs that are not allowable or allocable to
the grant award.

In addition, because subgrantee staff was apparently not fully aware of the AmeriCorps
Provisions with respect to eligibility and earning an education award, we recommend that the
Corporation instruct YouthBuild to train and monitor subgrantees to ensure only eligible
members with properly documented member files and the necessary hours completed are granted
education awards.

YouthBuild USA Response:
YouthBuild USA is aware of the AmeriCorps Provisions, and YouthBuild USA systematically
trains and monitors its subgrantees to ensure that they are also aware of and familiar with the
AmeriCorps Provisions. As was stated above, during each of the grant years YouthBuild USA
provided annual trainings on the Provisions and regular electronic communication to support
subgrantee compliance. Most recently, YouthBuild USA also provided subgrantees with CD’s
containing forms and checklists to assist subgrantees in monitoring their own compliance. All of
the above methods were used to consistently review member eligibility and ensure that member
documentation needed to earn an education award is provided.

In addition to the annual conference, YouthBuild USA monitors and trains sites through bi-
monthly individual site and group conference calls that provide an opportunity for YouthBuild
USA to provide updates, reminders, and clarification. YouthBuild USA has also implemented a
desktop monitoring tool which includes reviews of required documents from member files and
member timesheets among other things. Finally, YouthBuild USA's updated site visit protocol
also requires that the site's WBRS data be analyzed thoroughly prior to the visit and that one-
third of the past year's member files plus one-third of current member files be reviewed during
the visit. Service hours from the time logs in the member file are checked to ensure that they
match the service hours recorded in WBRS.

Compliance Finding #3: Unsupported or Inadequately Documented Other Direct Costs

Auditors’ Recommendation:
We recommend that the Corporation determine the allowability of the costs questioned and
recoup costs that are not allowable and allocable to the grant award including applied
administrative costs.

In addition, because the subgrantee staff was apparently not fully aware of AmeriCorps
Provisions with respect to other direct costs charged to the grant, we recommend that the
Corporation instruct YouthBuild to train and monitor subgrantees to ensure that other direct
costs claimed are allocable to the AmeriCorps program and adequately supported with source
documents.

YouthBuild USA Response:
YouthBuild USA is aware of the AmeriCorps Provisions, and YouthBuild USA systematically
trains and monitors its subgrantees to ensure that they are also aware of and familiar with the
AmeriCorps Provisions. During YouthBuild USA’s annual trainings a review of financial
procedures and allowable costs is provided. The agendas for these conferences and attendee lists
were provided to the auditors. Additional training and updates were provided via email
communication with subgrantees.

The auditor has inaccurately attributed to YouthBuild USA, the parent agency, questioned costs
at two sub-grantees. There were no questioned costs at YouthBuild USA. The auditors have
inaccurately reflected the questioned costs from two subgrantees, YouthBuild Atlantic City and
YouthBuild Columbia Heights, as YouthBuild USA costs in the audit findings report. These
subgrantees are separate 501(c) 3 organizations and should therefore be treated as all other
subgrantees have been in the report. These two organizations each had challenges which
prevented them from submitting the required documentation. YouthBuild Atlantic City ceased
operations and closed in 2002 and was funded more than five years ago. Since YouthBuild USA
did not require source documentation at that time from its subgrantees, we did not have any
information on file and have no way of acquiring it from the program. Therefore, we find it
unreasonable that YouthBuild Atlantic City’s questioned costs of $135,388 be attributed to the
parent agency. YouthBuild Columbia Heights experienced significant staff turnover during the
time in question. The staff turnover resulted in the loss of essential AmeriCorps information. As
with the other subgrantees audited, findings related to YouthBuild Columbia Heights should be
attributed to the sub-grantee. For future protection, we will ask any future grantee that closes to
turn over all its AmeriCorps-related financial and member files to YouthBuild USA at the time
of closing.
In addition, we disagree with some of the questioned direct costs for YouthBuild Philadelphia.
The AmeriCorps Provisions do not require that the subgrantee provide a sign-in sheet concerning
members utilizing bus/subway tokens. The Provisions refer to source documentation only,
which was provided by YouthBuild Philadelphia. The subgrantee’s program policy did not state
that sign-in sheets were needed to provide the members with transportation tokens. This expense
totals $31,123.05 of the program’s $52,960 of questioned costs. We argue that this finding is
unreasonable and that the program should not be held responsible for policies established by the
auditors and not the Corporation for National and Community Service. Also, we acknowledge
that American Express bills are not source documents; on the other hand, we would argue that
detailed American Express bills of $14,300 adequately reflect where the charges were spent; and
therefore should be considered sufficient documentation. Since the 2000-2003 grant period,
YouthBuild Philadelphia has hired a new Financial Manager and has since implemented better
systems to track AmeriCorps expenses. There are no questioned costs for YouthBuild
Philadelphia after 2003.
There were no questioned costs for YouthBuild USA or any subgrantee resulting from this
finding for the 2004-2005 grant year. YouthBuild USA’s full-time AmeriCorps Financial
Manager reviews all the AmeriCorps subgrantees’ financial information. This includes the
subgrantees’ Financial Status Report as well as backup documentation (general ledger and
invoices to support expenses) in detail, ensuring that the expenses are allowable under the
AmeriCorps Provisions and that the subgrantee has adequate source documentation on file.

Compliance Finding #4: Unallowable and Unallocable Match Costs

Auditors’ Recommendation:
We recommend that the Corporation determine the allowability of the costs questioned and
calculate the effect of the disallowed costs on the reimbursed Federal share.

In addition, because subgrantee staff was apparently not fully aware of the AmeriCorps
Provisions with respect to the requirements for match costs, we recommend that the Corporation
instruct YouthBuild to train and monitor subgrantees to ensure claimed match costs are
adequately documented and allocable in accordance with AmeriCorps provisions.

YouthBuild USA Response:
Of the $6,254,305 in questioned match costs, $5,906,451 was excess match above the required
minimum match. YouthBuild USA, YouthBuild St. Louis, YouthBuild Portland, YouthBuild
Portland DD, and YouthBuild York all met the required minimum match. Therefore the
questioned match costs are $347,854.

YouthBuild USA is aware of the AmeriCorps Provisions, and YouthBuild USA systematically
trains and monitors its subgrantees to ensure that they are also aware of and familiar with the
AmeriCorps Provisions. During YouthBuild USA’s annual trainings, it is specifically stated that
federal funds cannot be used as match for member costs. The agendas for these conferences and
attendee lists were provided to the auditors. Further, YouthBuild USA provided subgrantees a
CD at the conference and a follow up CD containing AmeriCorps documents and templates of
required forms. Additional training and updates were provided via email communication with
subgrantees. Finally, YouthBuild USA monitors and trains sites through bi-monthly individual
site and group conference calls and utilizes a desk-top monitoring tool which includes the review
of required documents for match costs. This tool further allows us to monitor subgrantees'
compliance with the AmeriCorps Provisions.

YouthBuild USA has also implemented a new system of monitoring the source of the
subgrantees' match. At the beginning of each grant year, the subgrantee provides YouthBuild
USA with the following information: Source of Support, Value, Type (Federal, State, Local, or
Private), Use/Purpose (Member Costs or Program Operating Costs) and Documentation of
Support. YouthBuild USA reviews this information to ensure that the subgrantees are in
compliance.

YouthBuild USA is able to determine the methodology of claiming match. We provided
documentation of our match to the auditors, but they declined to review it as they would not
accept any methodology that did not involve having a segment of the accounting code used for
match purpose. We have now determined a method of calculating match which we intend to
utilize consistently for the future.

The auditors have again inaccurately reflected the questioned costs from two subgrantees,
YouthBuild Atlantic City and YouthBuild Columbia Heights, as YouthBuild USA costs in the
audit findings report. These subgrantees are separate 501(c) 3 organizations and thus, should be
treated as all other subgrantees have been in the report. YouthBuild Atlantic City ceased
operations and closed in 2002. Since YouthBuild USA did not require source documentation at
that time from its subgrantees, we did not have any information on file and have no way of
acquiring it from the program. We find it unreasonable that YouthBuild Atlantic City’s
questioned match of $367,684 is attributed to YouthBuild USA in this report.

YouthBuild Columbia Heights experienced significant staff turnover during the time in question.
The staff turnover resulted in the loss of essential AmeriCorps information. As with the other
subgrantees audited, findings related to YouthBuild Columbia Heights should be attributed to
that organization.

YouthBuild USA does inform its subgrantees of the AmeriCorps requirements, which includes
the requirement that federal funds can not be used as match for member costs. YouthBuild Los
Angeles does understand that Housing and Urban Development (HUD) can not be used match;
however, the program is no longer a YouthBuild USA AmeriCorps program.

The questioned member match costs for YouthBuild Philadelphia, YouthBuild St. Louis, and
YouthBuild York (grant year 2002-2003) constitute more than 25% of the total questioned match
costs. These programs did not use Corporation for National and Community Service funds to
pay living allowances to their members and thus were not required to provide any match.

As was pointed out to the auditors, YouthBuild Philadelphia did not use Corporation for
National and Community Service funds to pay its part-time members’ living allowances.
Therefore, the program was not required to provide any match for its part-time members for the
grant years in question. The auditors state that “no documentation was provided to substantiate
that a non-Federal funding source contributed to match costs.” In fact, the program did provide
the auditors with additional non-federal source match, but the auditors refused to review it.

Once again, as was pointed out to the auditors, YouthBuild St. Louis did not use Corporation for
National and Community Service funds to pay its members’ living allowances. Therefore, the
program was not required to provide any match for its members for the grant years in question.
YouthBuild St. Louis does understand that HUD cannot be used as match for member costs. The
auditors state that “no documentation was provided to substantiate that a non-Federal funding
source contributed to match costs.” In fact, the program did try to provide the auditors with
additional non-federal source match in the form of commitment letters, but the auditors did not
find the commitment letters acceptable.
Finally, as was pointed out to the auditors, YouthBuild York did not use Corporation for
National and Community Service funds to pay its members’ living allowances for the grant year
2002-2003. Therefore, the program was not required to provide any match for its members for
the grant year 2002-2003. YouthBuild York does understand that HUD cannot be used as match
for member costs.
Thus, inclusion of HUD expenditures as match for member allowances by these three
organizations prior to 2004 has no material impact: they paid 100% of their member allowances
with HUD funds rather than CNCS funds and thus were not required to match.

Compliance Finding #5: Inadequate Controls over Tracking and Reviewing Match Costs
Prior to the Compilation of the Aggregate FSR.

Auditors’ Recommendation:
We recommend the Corporation instruct YouthBuild to develop and implement written policies
and procedures to ensure:
     1) Costs claimed as match are properly recorded in the financial management system, so
         that costs claimed can be specifically identified in the accounting records.
     2) Prior to the compilation of the aggregate FSR, subgrantee claimed match costs are
         reviewed to determine if costs are allowable and allocable per the AmeriCorps
         Provisions.

YouthBuild USA Response:
YouthBuild USA will develop and implement written policies and procedures to ensure that
costs claimed can be specifically identified in the accounting records. We have determined a
method of calculating match which we intend to utilize consistently for the future.

YouthBuild USA has also implemented a new system of monitoring the source of the
subgrantees’ match. At the beginning of each grant year, the subgrantee provides YouthBuild
USA with the following information: Source of Support, Value, Type (Federal, State, Local, or
Private), Use/Purpose (Member Costs or Program Operating Costs) and Documentation of
Support. YouthBuild USA reviews this information to ensure that the subgrantees are in
compliance. Also, YouthBuild USA has implemented a desktop monitoring tool which includes
the review of required documents for match costs. This tool further allows us to monitor
subgrantees' compliance with the AmeriCorps Provisions.
Please note that there are no instances of questioned match in the most recent years of 2004-05.

Compliance Finding #6: Errors on Aggregate FSR Not Identified and Corrected in a
Timely Manner

Auditors’ Recommendation:
We recommend the Corporation instruct YouthBuild to review their internal control policies and
procedures and revise, if necessary, controls to ensure costs claimed on the aggregate FSR are
complete and in agreement with the accounting records.

YouthBuild USA Response:
While the audit report is correct that the expenditures reported on the final Financial Status
Report (FSR) were overstated, it should be pointed out that YouthBuild USA drew down from
the Corporation the correct amount of funds. In addition, draw-downs equaled the actual
expenditure amount as documented in our general ledger, and the Federal Cash Transaction
Report was accurate. The only discrepancy was on the FSR.

This discrepancy was caused primarily by the late submission of FSRs by subgrantees and
additional information we needed from subgrantees and/or subgrantee costs we were
questioning. These issues caused delays in our ability to report some subgrantees costs in our
FSRs. In the past we have dealt with such adjustments by including the data from the previously
missing FSR on the next aggregate FSR and attempting to ensure that the cumulative figures
were accurate. The discrepancy noted here does indicate that this adjustment was sometimes
unsuccessful. Once it was brought to our attention that expenditures per the final FSR exceeded
the amount of funds we had drawn down from the Corporation we elected to adjust not only the
final FSR but every FSR during the award, thereby adjusting for any timing issues even if the
subsequent FSR would have been correct on a cumulative basis. This effort to report everything
in the correct FSR timeframe resulted in our corrections appearing to be greater than they
actually were.

YouthBuild USA has now instituted a higher level of oversight to monitor subgrantees'
submission of required documents in a timely manner. Timely submission of required forms was
reviewed several times during our annual training with subgrantees. In preparation for the most
recent semi-annual FSR and Progress Reports, YouthBuild USA spent a portion of our first bi-
monthly individual site conference call with each National Direct subgrantee reminding them of
these reporting deadlines and detailing what information was needed from them.

We have also made changes to our internal controls over the FSR and Federal Cash Transaction
Report process. We have modified our general ledger-based internal reports so that they include
a subgrantee payment section. We will reconcile these reports (upon which the FSR will be
based) to the general ledger before preparing the aggregate FSR. If the circumstance arises of a
late or changed FSR from a subgrantee we will, with the permission of the Corporation, submit a
revised FSR for that period as soon as possible rather than attempting to address the situation
with the next FSR. Prior to issuing the final FSR we will ensure that it ties out to the final
Federal Cash Transaction Report for the grant. In addition, the Controller has expanded her
review to ensure that both parent and subgrantee expenditures tie to the FSR as well as reviewing
the Federal Cash Transaction Report.

Compliance Finding #7: Inadequate Controls to Monitor Subgrantee Activities for
Education Award Program

Auditors’ Recommendation:
We recommend the Corporation instruct YouthBuild to:
   1) Comply with its policies and procedures and conduct site visits for each subgrantee at
       least once a year;
   2) Develop and implement written policies and procedures to maintain a log of all site visits
       performed and any deficiencies noted; and
   3) Develop and implement written policies and procedures to ensure follow-up actions are
       performed for deficiencies noted during site visits.

YouthBuild USA Response:
This finding is based on an inaccurate portrayal of YouthBuild USA's policies and procedures
related to site visits to Education Award Programs. YouthBuild USA did not commit to the
Corporation in any of our Education Award grant proposals that YouthBuild USA would make a
site visit to each Education Award Program. The auditors erroneously assumed that our
Education Award Program policies and procedures are the same as our National Direct policies
and procedures. To cover our administrative expenses for the Education Award Program,
YouthBuild USA only receives $200 per half-time member. It is not possible to have the same
level of engagement with Education Award Programs given the expense of running the program
with this fixed award. It is not possible to make a site visit to all programs under these budget
constraints; hence, we did not commit to doing so in our grant proposals.

Nonetheless, YouthBuild USA has implemented a new system of Education Award Program
monitoring. There is now a staff person focused solely on the Education Award Program, with
the goal of making site visits to as many programs as possible. As part of YouthBuild USA's
updated site visit protocol, areas of concern and follow-up needed are tracked in a spreadsheet
that indicates when follow-up action is needed and has been taken. Education Award Programs
also participate in bi-monthly group conference calls. These calls provide an additional check-in
point for subgrantees to ask questions and for YouthBuild USA to provide updates, reminders,
and clarification.

Compliance Finding #8: Duties Not Adequately Segregated to Ensure Safeguarding of
AmeriCorps Funds

Auditors’ Recommendation:
We recommend the Corporation instruct YouthBuild to review and modify, if necessary, controls
implemented by subgrantees to ensure adequate segregation of duties for the safeguarding of
AmeriCorps funds.

YouthBuild USA Response:
YouthBuild USA includes a review of subgrantees’ internal controls as part of our site visit
protocol.

Regarding the specific case of YouthBuild Philadelphia, their policy is to ensure an adequate
segregation of responsibilities with regard to all aspects of the financial operations of the
organization including, but not limited to, receipts, bank deposits, bank statement reconciliation,
invoice approval, check preparation, check signing, and expense reimbursement approvals.
Additionally, the organization will request the independent CPA firm that it retains to study
staffing and recommend improvements in segregation of duties annually.

At the time of the Office of Inspector General’s visit, YouthBuild Philadelphia had an unfilled
position, Fiscal Assistant. The Fiscal Manager took responsibility for the entire fiscal function,
resulting in inadequate segregation of duties and internal control for the department. Shortly
after the OIG visit, the position was filled, and the proper separation of duties was resumed.

YouthBuild Philadelphia is currently updating the agency’s Fiscal Manual to document all
policies and procedures applicable to the Fiscal Department. Their policies will be updated to
ensure effective control over accountability for all funds, property and other assets. The Fiscal
Department at YouthBuild Philadelphia is committed to providing adequate internal control over
the agency’s assets. By segregating the receipt functions and disbursement functions and
providing adequate independent reviews of the activities of the Fiscal Department, YB
Philadelphia has now provided necessary internal control mechanisms to safeguard the agency’s
funding and assets.

Compliance Finding #9: Late Submission of Required AmeriCorps Documents

Auditors’ Recommendation:
We recommend that the Corporation instruct YouthBuild to train and monitor subgrantees as
necessary to ensure all required documents are submitted in a timely manner.

YouthBuild USA Response:
YouthBuild USA has instituted a higher level of oversight to train and monitor subgrantees'
submission of required documents in a timely manner. Timely submission of required forms was
reviewed several times during our annual training with subgrantees. YouthBuild USA is closely
monitoring subgrantees' submission of enrollment, change of status, and exit forms in WBRS.
All subgrantees submitted a "Start Date Form" at the beginning of the grant year, indicating the
members' anticipated start date and end date. A portion of our first bi-monthly individual site
conference call with each National Direct subgrantee was then dedicated to reminding them of
the 30-day submission requirement for these forms and setting up procedures to track the timely
submission of the forms. Education Award Programs now send enrollment forms to YouthBuild
USA and the staff person dedicated to the Education Award Program enters the information into
WBRS, ensuring that it is entered within the 30-day timeframe.

In preparation for the most recent semi-annual FSR and Progress Reports, YouthBuild USA
spent a portion of our first bi-monthly individual site conference call with each National Direct
subgrantee reminding them of these reporting deadlines and providing training that detailed what
information was needed from them. Training for the completion of the subgrantee progress
reports was also provided to ensure that subgrantees submitted the information correctly in
WBRS.

We are pleased to report that all documentation needed from subgrantees and YouthBuild USA
to complete the most recent semi-annual FSR and the Progress Report was completed and
submitted to the Corporation for National and Community Service on time. We have systems in
place to ensure that timely submission of these reports continues.

Compliance Finding #10: Minimum Match Requirements Not Met

Auditors’ Recommendation:
We recommend that the Corporation instruct YouthBuild to train and monitor subgrantees to
ensure claimed match costs are funded from non-Federal source and that the minimum match
requirement is met. We also recommend that the Corporation recoup excess Federal share,
including administrative costs, for subgrantee match shortfall.

YouthBuild USA Response:
YouthBuild USA is aware of the AmeriCorps Provisions, and YouthBuild USA systematically
trains and monitors its subgrantees to ensure that they are also aware of and familiar with the
AmeriCorps Provisions. During YouthBuild USA’s annual trainings there is a solid review of
the minimum match requirements. The agendas for these conferences and attendee lists were
provided to the auditors. Additional training and updates were provided via email
communication with subgrantees and through bi-monthly individual site and group conference
calls. YouthBuild USA has also implemented a desk-top monitoring tool which includes the
review of required documents for match costs. This tool further allows us to monitor
subgrantees compliance with the AmeriCorps Provisions.

YouthBuild USA has implemented a new system of monitoring the source of the subgrantees
match. At the beginning of each grant year, the subgrantee provides YouthBuild USA with the
following information: Source of Support, Value, Type (Federal, State, Local, or Private),
Use/Purpose (Member Costs or Program Operating Costs) and Documentation of Support.
YouthBuild USA reviews this information to ensure that the subgrantees are in compliance.
Also, YouthBuild USA’s AmeriCorps Financial Manager monitors the match on a semi-annual
basis to ensure that the subgrantee is meeting the minimum match requirements.

All subgrantees have been told the requirements, since the programs have first received
AmeriCorps funding, that federal funds can not be used as match for member costs.
As was pointed out to the auditors, YouthBuild Philadelphia did not use Corporation for
National and Community Service funds to pay its part-time members’ living allowances. The
program did not need to provide any match for its part-time members for the grant years in
question. Since no match was required, YouthBuild Philadelphia met the minimum match
requirements.

Compliance Finding #11: Administrative Cost Percentage Exceeded Maximum Allowable
Auditors’ Recommendation:
We recommend that the Corporation determine the allowability of the costs questioned and
calculate the effect of the disallowed costs on the reimbursed Federal share.

YouthBuild USA Response:
We disagree with the audit findings that YouthBuild Los Angeles and YouthBuild Philadelphia
exceeded the maximum allowable Administrative Costs. The programs met this requirement
prior to direct costs being disallowed. Once the questioned costs were deducted from the grant
amount, the maximum allowable Administrative Costs were not in compliance. However, at the
time of submission the administration costs were in compliance with the requirements.

Compliance Finding #12: Living Allowance Not Paid on an Incremental Basis

Auditors’ Recommendation
We recommend that the Corporation instruct YouthBuild to train and monitor subgrantees and
provide training to subgrantees as necessary to ensure that living allowances are paid on an
incremental basis in accordance with AmeriCorps Provisions and not on an hourly basis.

YouthBuild USA Response:
YouthBuild USA is aware of the AmeriCorps Provisions, and YouthBuild USA systematically
trains and monitors its subgrantees to ensure that they are also aware of and familiar with the
AmeriCorps Provisions. During YouthBuild USA’s annual trainings there is a solid review of
all necessary financial procedures are reviewed. The agendas for these conferences and attendee
lists were provided to the auditors. Additional training and updates were provided via email
communication with subgrantees and through bi-monthly individual site and group conference
calls. YouthBuild USA has also implemented a desk-top monitoring tool which includes the
review of required documents for match costs. This tool further allows us to monitor
subgrantees’ compliance with the AmeriCorps Provisions.
There were no questioned costs resulting from this finding for the 2004-2005 grant year. At this
time, YouthBuild USA has a full-time AmeriCorps Financial Manger, who has been an
employee for the past two years, and who reviews all the AmeriCorps subgrantees’ financial
information. This person reviews the subgrantees’ Financial Status Report as well as backup
documentation (member timesheets and member payroll) in detail ensuring that the member’s
living allowance does not fluctuate and is not being paid on an hourly basis.
It is clear to YouthBuild USA and its subgrantees that any living allowance billed or matched to
the Corporation for National and Community Service cannot be paid on an hourly or daily basis.
Compliance Finding #13: Aggregate Training Hours Exceeded AmeriCorps Limit

Auditors’ Recommendation:
We recommend that the Corporation instruct YouthBuild to train and monitor subgrantees as
necessary to ensure aggregate training hours for members are within the 20 percent limitation
established by AmeriCorps Provisions.

YouthBuild USA Response:
YouthBuild USA interpretation of this rule differs from the auditors' interpretation. YouthBuild
USA has understood that the 20 percent limitation on training applied to the aggregate of all of
the YouthBuild AmeriCorps subgrantees and not to individual subgrantees. This interpretation
was shared at our close-out conference with the auditors. It is based on the following
AmeriCorps Provisions beginning in 2000 and continuing through 2004:
       e. Limit on Education and Training Activities. No more than 20 percent of the
          aggregate of all AmeriCorps member service hours in a Program may be spent in
          education, training, or other non-direct activities.

However, the same Provisions define a Program as:
     Program means a national service Program, described in the Act (42 U.S.C. 12572(a)),
     carried out by the Grantee through funds awarded by the Corporation and carried out in
     accordance with federal requirements and the Provisions of this Grant.

A Grantee is further defined in the Provisions as:
      Grantee, for the purposes of this agreement, means the direct recipient or the
      subrecipient/site of this Grant. The term sub-Grantee shall be substituted for the term
      Grantee where appropriate…

Based on these definitions and given that the sub-Grantee is not specifically named in Provision
7e (Limit on Education and Training Activities), YouthBuild USA interprets the Provisions to
mean that the 20 percent training limitation is taken over the aggregate of all our YouthBuild
AmeriCorps programs and not based on individual subgrantees. YouthBuild USA has requested
guidance on this issue from the Corporation for National and Community Service.
In Conclusion:

YouthBuild USA is dedicated to achieving full compliance in all areas of financial and
programmatic management as we work to serve our communities through engaging low-income
youth in rebuilding homes and computers and work to build the capacity of community- and
faith-based organizations to manage government funds.

The audit revealed specific areas that need improvement. It also revealed the impact of steady
improvements already made although these were not specifically noted by the auditors. We have
made additional improvements in response to the audit.

We had a certain number of specific disagreements regarding interpretation and presentation that
are noted above.

We look forward to working with the Corporation toward these goals. If further detailed
information is needed regarding our procedures or responses, please contact Jennifer Bastress
Tahmasebi, at 617.741.1213. I am also available at all times for further consideration of all the
issues raised.

Sincerely,

Dorothy Stoneman
President
                        Appendix B



Response of the Corporation for National and Community Service
To:            Carol Bates, Acting Inspector General

From:          Margaret Rosenberry,

Cc:            Rosie Mauk, Director of AmeriCorps
               Tory Wilson, Audit Resolution Coordinator

Date:          January 10, 2006

Sub:           Response to OIG Draft Audit Report: Audit of Corporation for National and
               Community Service Grants Awarded to YouthBuild USA


The Corporation had reviewed the subject draft audit report of the Corporation's grants awarded
to YouthBuild USA, during the period July 1, 2000 to March 31, 2005, and the response from
YouthBuild.

The auditors questioned $266,950, about 2.57% of the total federal claimed costs by YouthBuild
USA in four Corporation grants. YouthBuild provided the Corporation with its preliminary
response and is addressing each of the findings. Due to the limited timeframe for response, the
Corporation has not yet conducted a comprehensive review nor analyzed documentation from
YouthBuild USA supporting the questioned costs. The Corporation will respond to all findings
and recommendations when the final audit is issued.




                             1201 New York Avenue, NW * Washington, DC 20525
                                   202-606-5000 * www.nationalservice.org
                               Senior Corps r ArneriCorps * Learn and Serve America
